<html>
<title> - CHILDHOOD OBESITY: BEGINNING THE DIALOGUE ON REVERSING THE EPIDEMIC</title>
<body><pre>[Senate Hearing 111-1130]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1130

  CHILDHOOD OBESITY: BEGINNING THE DIALOGUE ON REVERSING THE EPIDEMIC

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

          EXAMINING CHILDHOOD OBESITY, FOCUSING ON REVERSING 
                              THE EPIDEMIC

                               __________

                             MARCH 4, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE

75-547 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                  ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania   LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina         TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                 PAT ROBERTS, Kansas
AL FRANKEN, Minnesota                
MICHAEL F. BENNET, Colorado          
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)










                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, MARCH 4, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Benjamin, Regina M., M.D., MBA, Surgeon General, U.S. Department 
  of Health and Human Services, Washington, DC...................     4
    Prepared statement...........................................     7
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, statement.........................................    16
Hassink, Sandra, M.D., Chair, American Academy of Pediatrics 
  Obesity Leadership Workgroup, Wilmington, DE...................    25
    Prepared statement...........................................    27
Thompson, Joe, M.D., MPH, Director, Robert Wood Johnson 
  Foundation Center to Prevent Childhood Obesity, Little Rock, 
  Arkansas.......................................................    32
    Prepared statement...........................................    34
Mendenhall, Rashard, Pittsburgh Steelers Running Back, National 
  Football League, Pittsburgh, PA................................    39
    Prepared statement...........................................    41

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Murray...............................................    50
    Senator Casey................................................    51
    Senator Hagan................................................    52
    Senator Franken..............................................    53
    The Surgeon General's Vision for a Healthy and Fit Nation....    54

                                 (iii)



 
  CHILDHOOD OBESITY: BEGINNING THE DIALOGUE ON REVERSING THE EPIDEMIC

                              ----------                              


                        THURSDAY, MARCH 4, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Dodd, Casey, Merkley, Enzi, and 
Burr.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    Our hearing this morning is going to be the first in a 
series dealing with childhood obesity and how we can reverse 
it.
    The harsh and sad reality is that, for the first time in 
our Nation's history, we're in danger of raising a generation 
of children who will live sicker and die younger than the 
generation before them. Today, all the gains that we've made in 
life expectancy, thanks to public health and wellness programs, 
are at risk. And one of the main reasons is the seemingly 
inexorable rise in childhood obesity.
    Currently, more than a third of our children are overweight 
or obese, and half of these kids are clinically obese. More 
than one out of six kids in America is obese, and that's more 
than twice the rate of just 30 years ago. As we all know, 
children who are overweight and obese are at greater risk for a 
whole range of serious health problems, both during childhood 
and later on in adulthood. Children who are obese are at risk 
for cardiovascular problems, such as high cholesterol, high 
blood pressure, type 2 diabetes. And children and adolescents 
who are obese are likely to remain so as adults.
    One in three children born today runs the risk of 
developing type 2 diabetes. Unless we reverse this disturbing 
trend, countless children's lives will be cut short because of 
a preventable condition.
    Obesity's toll on children is especially disturbing. On the 
macro level, childhood obesity is a national public-health 
crisis. But, on the individual level, for each child affected 
with this condition, it's something else; it is a true tragedy.
    A Yale University study concluded that children who are 
overweight are stigmatized by their peers as early as age 3. 
They're subject to teasing, rejection, bullying, and are two to 
three times more likely to report suicidal thoughts, as well as 
to suffer from high blood pressure and/or diabetes. The author 
of the study concluded, ``The quality of life for kids who are 
obese is comparable to the quality of life of kids who have 
cancer.''
    So, if we're going to transform our Nation into a true 
wellness society, we need to begin with our kids. Childhood 
obesity is more than a threat to public health, it's a threat 
to public and private budgets. By increasing the risk for 
chronic diseases, obesity drives up the costs of healthcare. 
The cost for treating a child who is obese is approximately 
three times higher than the cost for treating an average-weight 
child. This adds up to $14 billion annually in direct health 
expenses, $3 billion of which is covered--children who are 
covered by Medicaid. So, we can see the impact it has on 
budgets.
    As we will hear today, the childhood obesity epidemic has 
many causes, and everyone has a part to play if we hope to 
reverse this epidemic.
    I applaud First Lady Michelle Obama for recognizing the 
urgency of this crisis and for personally mobilizing a new 
national effort to combat it. As she so eloquently put it, ``We 
need commonsense solutions that empower families and 
communities to make healthy decisions for their kids.''
    I also applaud our Surgeon General, Dr. Regina Benjamin, 
for giving priority to the obesity epidemic in her vision for a 
healthy and fit Nation. As our Nation's top doctor, her 
recommendations highlight the importance of addressing this 
problem, not only from a clinical perspective, but also in our 
homes, childcare settings, schools, and neighborhoods. It is 
just invaluable for our country to have both the First Lady and 
the Surgeon General teamed up to take on this challenge.
    There are other reasons for optimism. Two days ago, at a 
Health Affairs briefing on childhood obesity, researchers 
reported on multiple initiatives to address the factors driving 
childhood obesity. Examples include improving primary care 
doctors' roles in preventing children from becoming obese, 
promoting healthy behaviors to employer-based programs for 
parents, so that parents know what to do, and both community-
based efforts and public/private partnerships that facilitate 
healthy choices by increasing access to healthy foods and 
physical activity.
    Today we're beginning the dialogue, here in this committee, 
about how we can confront the crisis of childhood obesity. To 
help us better understand the issue, we'll be hearing from four 
distinguished witnesses that will talk about how this epidemic 
has unfolded and why. They'll talk about smart, effective 
solutions that are emerging in our doctors' offices, in our 
communities, and through public/private partnerships.
    I thank all the witnesses for coming here today. I'll have 
more to say about each of them shortly, when I introduce them.
    Now I'll turn to someone else who has a great interest and 
has been very good on this issue, in promoting childhood 
awareness of this, and family awareness of the obesity problem, 
my Ranking Member, Senator Mike Enzi from Wyoming.

                   Opening Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman. I appreciate your 
punctuality. I could have been here just a little earlier, but 
I decided, if we were talking about obesity, I ought to use the 
stairs.
    [Laughter.]
    Takes a little longer.
    The Chairman. Very smart.
    [Laughter.]
    Senator Enzi. But, I do thank you for convening the hearing 
today on this very important issue, childhood obesity.
    Our Nation faces an epidemic of childhood obesity. As a 
result of this epidemic, millions of children are going to 
develop heart disease, diabetes, and a host of other serious 
medical conditions. Costs for programs, like Medicare and 
Medicaid, will further increase beyond their already 
unsustainable levels. Today, we'll discuss the First Lady's 
initiative to stop childhood obesity through a public campaign 
focused on nutrition, physical activity, healthy options in 
school, and helping families to make good lifestyle choices. I 
applaud the First Lady's efforts to raise obesity awareness, 
encourage children to adopt healthier behaviors, and provide 
families with the tools they need to make better choices.
    According to the Centers for Disease Control and 
Prevention, in the past 30 years the prevalence of childhood 
obesity in children between the ages of 2 and 5 has increased 
from 5 percent to 12.4 percent. And the rate of childhood 
obesity doubled from 1,980 to 2,000.
    Today, 30 States have obesity rates of 30 percent or more, 
and one in five children struggle with obesity. According to 
the Centers for Disease Control and Prevention, 80 percent of 
children who were overweight in their teenage years were also 
obese adults in their late 20s.
    This obesity epidemic has a direct and immediate impact on 
national healthcare spending. According to a recent article in 
Health Affairs, the medical bills of an obese individual are 42 
percent more than someone who is not obese. A 2004 study cited 
by the Centers for Disease Control and Prevention shows that 
Americans spent 9.1 percent of total U.S. medical expenditures 
on obesity-related care, or a total of $78.5 billion.
    While the financial impacts of obesity epidemic are 
daunting, the human cost is even greater. People who are obese 
face a much higher risk of developing conditions like heart 
disease, cancer, type 2 diabetes, hypertension, and stroke. 
Studies show that obesity in children only leads to greater 
health, social, and economic problems in the future. We have to 
stop obesity in our children to slow the epidemic for future 
generations.
    In Wyoming, we have the Commit to Your Health Campaign 
which hosts walks in the communities with third-graders to 
bring attention to childhood obesity. They also conduct media 
campaigns that focus on physical fitness, healthy lifestyles, 
and sound nutritional practice. It's important to work with the 
children in our communities to educate them about the 
importance of being physically active and aware of their food 
choices. Unfortunately, the Federal Government does not have a 
great track record in implementing programs that actually 
modify people's behaviors. I hope we can learn from a variety 
of sources, including employers, educators, and community 
leaders, about how to encourage incentive-based solutions that 
will promote greater personal responsibility and result in 
healthier lifestyles for American families.
    I'd also like to thank all the witnesses for their 
dedication to combating the serious problem that faces 
America's children. I'm looking forward to all of their 
testimony. I noted that Dr. Benjamin listed the increase in 
technology as one of the problems. I just saw some kids playing 
video games. They didn't get much exercise with it. Maybe the 
new Wii will help with that.
    The Chairman. Right.
    Senator Enzi. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Enzi.
    Our lead-off witness today, Dr. Regina Benjamin, the 18th 
Surgeon General of the U.S. Public Health Service. As America's 
doctor, she provides the public with the best scientific 
information available on how to improve their health and health 
of the Nation. Dr. Benjamin oversees the operational command of 
6,500 uniformed health officers who serve to promote, protect, 
and advance the health of the American people. Dr. Benjamin is 
founder and former CEO of the--this is where I'm going to have 
trouble--Bayou La Batre? Is that close? Oh, thank you.
    [Laughter.]
    The Chairman [continuing]. My French, anyway--Rural Health 
Clinic in Alabama. She's a former associate dean for rural 
health at the University of South Alabama College of Medicine 
in Mobile. In 1995, she was the first physician under the age 
of 40, and the first African-American woman to be elected to 
the American Medical Association board of trustees. In 2002, 
she became president of the Medical Association, State of 
Alabama, making her the first African-American female president 
of a State medical society in the entire United States.
    Dr. Benjamin has her B.S. in chemistry from Xavier 
University in New Orleans, her M.D. from University of Alabama, 
and an MBA from Tulane University, and five honorary 
doctorates, a member of the National Academy of Science's 
Institute of Medicine and a fellow of the American Academy of 
Family Physicians. She was also a Kellogg National fellow and a 
Rockefeller Next-Generation Leader.
    Dr. Benjamin, welcome back to the committee. And I am 
honored to have you here. We are all honored to have you here. 
I understand this is your first time to testify before a 
congressional committee. Let me assure you, we are honored to 
have you here, and I thank you, personally, for your great 
leadership on so many issues, but especially on this issue of 
childhood obesity.
    Your statement will be made a part of the record in its 
entirety, please proceed as you so desire.

 STATEMENT OF REGINA M. BENJAMIN, M.D., MBA, SURGEON GENERAL, 
  U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Dr. Benjamin. Thank you, Chairman Harkin, Ranking Member 
Enzi, and members of the committee. I want to thank you for 
holding a hearing on this important issue, and for giving me 
the opportunity to testify today.
    Mr. Chairman, thank you and the other members of your 
committee, for being such enthusiastic advocates of wellness 
and prevention, because, as I mentioned when I met with many of 
you, wellness and prevention is my priority as Surgeon General. 
I look forward to working with you, as well as with partners in 
government, in the nonprofit world, in the private sector, to 
confront serious problems that challenge the health of our 
Nation. And perhaps the most serious challenge to the Nation's 
health and well-being is childhood obesity.
    Since 1980, obesity rates have doubled in adults and 
tripled in children. The problem is even worse among black, 
Hispanic, and Native American children.
    Needless to say, we've been working on this issue for some 
time. In fact, in 2001 former Surgeon General David Satcher 
released his Call to Action to prevent and decrease overweight 
and obesity. In it he warned us about the negative effects that 
weight gain and unhealthy lifestyles were having on Americans' 
health and well-being. And now I've followed up on his report 
with my first paper, ``The Surgeon General's Vision For A 
Healthy and Fit Nation.''\1\ In my paper I lay out ways in 
which to respond to the public health issues that was raised 9 
years ago.
---------------------------------------------------------------------------
    \1\ This publication may be found at: www.surgeongeneral.gov.
---------------------------------------------------------------------------
    Although we've made some strides since 2001, the number of 
Americans who are struggling with their weight and health 
conditions related to their weight remains much too high. Most 
of you know, as has been repeatedly stated, the statistic that 
today in America more than two-thirds of adults and one in 
three children are overweight or obese. We see the sobering 
impact of these numbers in the high rates of chronic diseases, 
such as diabetes, heart disease, and other chronic illnesses, 
that is starting to affect our children more and more. Just 
this week, a study from the University of North Carolina School 
of Medicine reported that obese children as young as 3 years of 
age show signs of an inflammatory response that has been linked 
to heart disease in later life.
    So, I was pleased to join the First Lady for the launch of 
her Let's Move! initiative to solve the problem of childhood 
obesity within a generation. Both my vision for a healthy and 
fit Nation and the First Lady's Let's Move! campaign take a 
comprehensive approach that engages families and communities as 
well as the public and the private sector.
    For years we've encouraged Americans to eat more 
nutritiously, exercise regularly, and maintain healthier 
lifestyles. But, for these things to happen, Americans need to 
live and to work in environments that support their efforts. 
There's a growing consensus that we, as a Nation, need to 
recreate our communities and our environments where the healthy 
choices are the easy choices and the affordable choices.
    My vision for a healthy and fit Nation is an attempt to 
change that national conversation from a negative one about 
obesity and illness to a positive conversation about being fit 
and being healthy.
    We need to stop bombarding Americans with what they can't 
have, what they can't eat, what bad things will happen to them 
10 years from now. We need to begin to talk about what they can 
do to become healthy and fit. We need to make exercise 
activities fun, something people enjoy, something they really 
want to be doing, such as playing sports, swimming, or just 
going dancing because they enjoy it, or simply taking a walk.
    To do this, we need to reach out to parents and teachers, 
as well as mobilize action across the Federal Government, in 
partnership with Governors and mayors, medical community, 
leading foundations, and the sports and business communities. 
We need everyone's help to support commonsense innovative tools 
and solutions.
    For example, healthy foods should be affordable and 
accessible to all Americans in our diverse communities. 
Children should spend less time in front of the TV. Research 
shows that--the correlation between time watching TV and weight 
gain. Children should be having fun and playing in safe 
neighborhoods that provide parks, recreational facilities, 
community centers, and walking and bike paths. Schools need to 
serve healthy food and set higher nutrition standards. Schools 
should also require daily physical education classes, as well 
as recess. Hospitals and work sites, as well as communities, 
should make it easy for mothers to initiate and to sustain 
breast feeding. Employers should implement wellness programs 
that promote healthy eating in cafeterias, encourage physical 
activity through group classes, and create incentives for 
employees to participate.
    My hope is that the communities across the country will use 
my vision for a healthy and fit Nation as a blueprint for 
action, a blueprint to share resources, to develop 
partnerships, and to use innovative solutions for change. As 
Surgeon General, I want America to become a healthy and fit 
Nation. To do this, we must remember that Americans are more 
likely to change their behavior if there is a meaningful 
reward, something more than just reaching a certain weight, a 
certain dress size. The real reward has to be something that 
people can feel, something they enjoy, something they can 
celebrate. That reward is an invigorating, energizing, and 
joyous health. That is a level of health that allows people to 
embrace each day and live their lives to the fullest, without 
disease, without disability, and without the loss of 
productivity.
    Finally, today we stand at a crossroads. The old normal was 
to stress the importance of attaining recommended numbers for 
weight and BMI. Although these numbers are important measures 
of disease and disability, the total picture is so much bigger. 
It involves the creation of a new normal, with emphasis on 
achieving an optimal level of health and well-being. People 
want to live long and to live well, and they're making their 
voices heard across this Nation.
    Today's obesity epidemic calls for committed, compassionate 
citizens to mobilize and to demand the health and well-being 
that they so richly deserve. I've heard their call, we've all 
heard their call, and with your help, I'm honored to do 
everything in my power to help Americans to live long and live 
well and to be a healthy and fit Nation.
    Thank you, Mr. Chairman, and I would like to entertain any 
questions.
    [The prepared statement of Dr. Benjamin follows:]
          Prepared Statement of Regina M. Benjamin, M.D., MBA
                              introduction
    Mr. Chairman and members of the committee, I want to thank you for 
holding a hearing on this important issue and for giving me the 
opportunity to testify today. I am Vice Admiral Regina M. Benjamin, 
Surgeon General of the United States, U.S. Department of Health and 
Human Services (HHS). My statement provides you with an overview of the 
obesity epidemic, examples of individual and community interventions to 
reverse trends, and recent Federal actions initiated to help Americans 
achieve optimal health.
    Mr. Chairman, I know you have been a tireless advocate for wellness 
and prevention, as have so many other members of the committee. I share 
your enthusiasm, and I look forward to working with you to help both 
the public and private sectors confront the serious problems that 
challenge the health of our country.
                               background
    In 2001, former Surgeon General David Satcher in his ``Call to 
Action: To Prevent and Decrease Overweight and Obesity'' warned us 
about the negative effects that weight gain and unhealthy lifestyles 
were having on Americans' health and well-being.
    To reverse these trends, he outlined a national public health 
response. As Surgeon General I am advancing his initial efforts and 
have recently outlined a vision for a healthy and fit Nation. This past 
January, I issued my first paper to the Nation entitled, ``The Surgeon 
General's Vision for a Healthy and Fit Nation.'' This document lays out 
ways to concretely respond to the public health issues that were raised 
9 years ago.
    Although we have made some strides since 2001, the number of 
Americans who are struggling with their weight and health conditions 
related to their weight remains much too high.
    In recent decades, the prevalence of obesity has increased 
dramatically in the United States, tripling among children and doubling 
among adults.\1\ \2\ \3\ \4\ Today, two-thirds of adults \5\ and nearly 
one in three children are overweight or obese.\6\ \7\ The prevalence of 
obesity changed relatively little during the 1960s and 1970s, but it 
increased sharply over the ensuing decades--from 13.4 percent in 1980 
to 34.3 percent in 2008 among adults and from 5 percent to 17 percent 
among children during the same period. The prevalence of extreme 
obesity also increased over the past 30 years, and approximately 6 
percent of U.S. adults are now considered extremely obese.\8\ \9\ \10\ 
\11\
    There are important age, gender, geographic, socio-economic and 
racial and ethnic differences in the prevalence of adult and childhood 
overweight and obesity that need to be noted to ensure community and 
national efforts are tailored to be effective and responsive. Adult men 
have higher rates of overweight and obesity than adult women: 72.3 
percent of men and 64.1 percent of women are considered overweight or 
obese.\12\ Middle age men and women 40-59 years of age and older 
adults, 60 years and older, are more likely to be obese when compared 
to younger adults 20-39 years of age. Adults who did not live in a 
Metropolitan Statistical Area (MSA) were more likely to be obese than 
adults who lived in an MSA, and obesity percentages are highest in the 
Midwest and the South.\13\ Several racial and ethnic populations are 
disproportionately impacted by overweight and obesity. Non-Hispanic 
blacks are more likely to be obese compared to non-Hispanic whites, and 
Mexican-American women are more likely to be obese compared to non-
Hispanic whites.\14\ American Indian and Alaska Natives suffer the 
greatest disparity as approximately 70 percent of American Indian and 
Alaska Native adults are overweight or obese.\15\ \16\ An inverse 
relationship exists between education and obesity among U.S. 
adults.\17\ Among some population subgroups such as white women and 
Mexican American men, there is an inverse relationship between income 
and obesity.\18\
    The Nation's childhood overweight and obesity rates, if not 
corrected, may dramatically impact the quality and longevity of life 
for an entire generation of children. 31.7 percent of children 2-19 
years of age are overweight or obese, and 16.9 percent of the Nation's 
children 2-19 years of age are obese. Sadly, overweight and obesity are 
reflected at youngest ages of children. Recent studies show that 1 in 5 
children (21.2 percent) 2-5 years of age are overweight or obese and 1 
in 10 children (10.4 percent) 2-5 years of age are obese.\19\ Among 
children in the United States, the relationship between socio-economic 
status and obesity is less consistent than among adults, and the 
relationship appears to be weakening over time.\20\
    The health impacts of childhood obesity can already be seen during 
childhood. Just this week, a study from the University of North 
Carolina School of Medicine reported that obese children as young as 
age 3 show signs of an inflammatory response that has been linked to 
heart disease later in life.\21\
    Improper nutrition and inadequate physical activity are the 
underlying factors for the Nation's overweight and obesity epidemic. 
High-calorie, good-tasting, and inexpensive foods have become widely 
available and are heavily advertised. Portion sizes have increased,\22\ 
and Americans are eating out more frequently.\23\ Twenty years ago, the 
average blueberry muffin was 1.5 ounces and 210 calories. Today that 
muffin is 5 ounces and over 500 calories. The average soda was 12 
ounces or less and less than 150 calories. Sodas today are 20 ounces 
and over 250 calories.\24\ Additionally, the most recent Youth Risk 
Behavior Surveillance System found that only 21.4 percent of high 
school students eat the recommended 5 or more fruits and vegetables per 
day.\25\
    The Physical Activity Guidelines for Americans released by HHS 
recommends that adults should do at least 150 minutes of moderate-
intensity physical activity per week, and young people ages 6 to 19 
should engage in 60 minutes of moderate to vigorous activity daily.\26\ 
Nearly one-third of adults are not getting their recommended levels of 
physical activity. The most recent Youth Risk Behavior Surveillance 
System found only about one-third (34.7 percent) of high school 
students met recommended levels of physical activity, and only about 
half (53.6 percent) had physical education classes even once a 
week.\27\ Advancements in technology are also fueling a sedentary 
lifestyle among youth. Youth ages 8-18 devote an average of 7 hours and 
38 minutes to using entertainment media including television, 
computers, video games, cell phones, and movies across a typical 
day.\28\ \29\
    The twin epidemics of adult and childhood overweight and obesity 
are inter-connected. If one parent is obese, there is a 40 percent 
chance that the children will also be obese. If both parents are obese, 
the children have up to an 80 percent chance of being obese.\30\ Good 
nutrition and regular physical activity are the keys to helping 
Americans, especially children, live healthy, fit, and well. By 
practicing these healthy lifestyle behaviors, excess weight is 
prevented, weight loss is sustained, and strength and endurance are 
achieved.
                      opportunities for prevention
    To make and sustain progress in the fight against obesity, mothers, 
fathers, teachers, businesses, government and community leaders all 
must commit to changes to promote the health and wellness of our 
families and communities.
    As adults, we need to help our children get off to a good start. 
The earliest risks for childhood obesity begin during pregnancy. Excess 
weight gain, diabetes, and smoking during pregnancy are not just health 
risks for the mother--they also put children at risk for obesity early 
in life. Keeping pregnancy weight gain within recommended limits will 
help prevent diabetes in the mother, and breast feeding exclusively for 
the first 6 months after birth has also been shown to prevent childhood 
obesity.\31\ Parents and other caregivers play a key role in making 
good choices for themselves and their loved ones. Children and 
teenagers look to their mothers and fathers and other caregivers to 
model healthy lifestyle habits. Parents need to teach by example, and 
we need to give them the proper tools to be effective.
    As American families make changes for their health and wellness, 
environments need to support their healthy choices. Recent studies have 
shown that making changes to social and physical environments that make 
the healthy choice the easy or ``default'' choice will have the 
greatest impact on reducing and preventing obesity.\32\ To help our 
Nation evolve toward wellness, communities should implement policies to 
promote healthy eating and active living. Increasing exposure and 
access to healthy affordable foods is critical to Americans meeting the 
recommended U.S. Dietary Guidelines. Community coalitions should work 
with local governments and supermarket chains to ensure all 
neighborhoods make nutritious and affordable foods available to their 
residents. Success is being seen in some, but not enough, in parts of 
the Nation. For instance, Pennsylvania has implemented a Fresh Food 
Financing Initiative. This public-private grant and loan partnership 
has developed 74 fresh food outlets throughout the Commonwealth, giving 
over 500,000 Pennsylvania residents access to nutritious foods.\33\ As 
I'll describe shortly, the Obama administration is proposing to take 
this initiative nationwide.
    Policies can be crafted to make physical activity opportunities 
more accessible, safer, and attractive. Community design that 
incorporates sidewalks, bike lanes, traffic safety, improved lighting, 
and pleasant landscaping will encourage more Americans to walk to work 
or do daily errands by foot or bicycle. Locating schools within easy 
walking distance of residential areas and ensuring safe routes will 
increase the percentage of children walking to school each day. And 
finally, subsidizing memberships to recreational facilities can provide 
opportunities for individuals and whole families to stay active.\34\
    As communities work together to improve the built environment, 
child-specific community settings should make policy changes as well. 
It is estimated that over 12 million children ages 0-6 years receive 
some form of child care on a regular basis from someone other than 
their parents.\35\ Recommended policies that can help child care 
programs support healthy weight for young children include the 
following: require 60 minutes of a mix of structured and unstructured 
daily physical activity, establish nutrition requirements in child care 
by using national recommendations such as the Dietary Guidelines for 
Americans, appropriately train child care providers how to promote 
physical activity and good nutrition and how to involve parents in 
these activities, and provide parents materials that reinforce the 
healthy practices promoted in the child care setting.
    Each day, over 50 million children wake up and head off to 
schoo1.\36\ The school environment plays a pivotal role in preventing 
obesity among youth, as each school day provides multiple opportunities 
for students to learn about health and practice healthy behaviors. 
Well-designed school programs can promote physical activity and healthy 
eating, reduce the rate of overweight and obesity among children and 
teenagers, and improve academic achievement.\37\ \38\ Examples of 
effective school wellness program components include:

    <bullet> A planned and sequential health education curriculum for 
pre-kindergarten through grade 12;
    <bullet> A school and school workplace wellness policy that 
includes teachers and other school employees to model healthy 
behaviors;
    <bullet> Partnerships with parent-teacher organizations, families, 
and community members to support healthy eating and physical activity 
policies and programs;
    <bullet> Providing students appealing, healthy food options 
including fresh fruits, vegetables, whole grains, and lean proteins;
    <bullet> Limiting high calorie snack options, including beverages 
in vending machines; and
    <bullet> Requiring daily physical education for students in pre-
kindergarten through grade 12, allowing 150 minutes per week for 
elementary schools and 225 minutes per week for secondary schools.

    Doctors and other health care providers are often the most trusted 
source of health information and are powerful role models for healthy 
lifestyle habits. Medical care providers must make it a priority to 
teach their patients about the importance of good health. When 
discussing patients' Body Mass Index (BMI), providers should explain 
the connection between BMI and increased risk for disease and, when 
appropriate, refer patients to local resources that will help them meet 
their physical, nutritional, and psychological needs. Advancing the 
medical home concept to foster community and clinical partnerships will 
provide families more effective comprehensive care from their health 
care providers with access to additional supports to help make and 
sustain healthy changes. We must also teach our health professional 
students how to counsel patients on effective ways to achieve and 
maintain healthy lifestyle habits so it becomes a regular and natural 
part of everyday practice.
                         recent federal actions
    The Obama administration has made a historic commitment to 
prevention and wellness, creating environments that support health and 
extending health care coverage for millions of kids. One of President 
Obama's first acts while in office was to sign the Children's Health 
Insurance Program Reauthorization Act of 2009 (CHIPRA). We are grateful 
to Congress for passage of this important legislation which brings 
health coverage to an additional 11 million children as well as 
provides authority for a new community-based program to develop 
systematic models for reducing childhood obesity.
    In addition, nearly 1 year ago, the President and Congress included 
an unprecedented $1 billion for prevention and wellness in the American 
Recovery and Reinvestment Act. HHS has developed a new national 
program, Communities Putting Prevention to Work that will focus on the 
prevention of obesity and tobacco use. Communities, States, and 
national organizations will work together to implement solid prevention 
policies that will help residents live longer, healthier lives. Many of 
the recommendations I have outlined today will be implemented across 
the Nation with this landmark Recovery Act funding.
    And to address the specific national epidemic of childhood obesity, 
First Lady Michelle Obama recently announced the ambitious national 
goal of solving the challenge of childhood obesity within a generation.
    Her Let's Move! national campaign will provide schools, families 
and communities simple tools to help kids be more active, eat better, 
and get healthy, and empower parents with information and tools to make 
healthier choices easier choices.
    On February 9, President Obama issued an Executive Order 
establishing the first ever Task Force on Childhood Obesity. Within 90 
days, cabinet agencies across the government--from Health and Human 
Services to the Departments of Education, Agriculture and Interior--
will conduct a review of every single program relating to child 
nutrition and physical activity and develop a national action plan.
    In addition to the national action plan, the Federal Government is 
moving forward on the following actions to support the Let's Move! 
campaign:

    <bullet> By the end of the year, HHS plans to provide guidance to 
food producers on using consumer-friendly nutrition information on the 
front of food packages to help 65 million parents more easily select 
healthful foods for their families.
    <bullet> New web-based tools, such as a next generation Food 
Pyramid, and USDA's Food Environment Atlas will help families make 
healthier food and physical activity choices, and better understand 
national and local trends on food deserts.
    <bullet> The Administration is supporting the reauthorization of 
the Child Nutrition Programs including an additional $10 billion over 
10 years to improve the quality of foods provided through the National 
School Lunch and School Breakfast programs, increase the number of kids 
participating, and ensure schools have the resources they need to make 
program changes.
    <bullet> The Department of Agriculture is also moving to double the 
number of schools participating in the Healthier U.S. School Challenge, 
which establishes rigorous standards for schools' food quality, 
participation in meal programs, physical activity, and nutrition 
education--the key components that make for healthy and active kids.
    <bullet> To eliminate food deserts, Mrs. Obama announced a new 
Healthy Food Financing Initiative, which is a joint initiative of HHS, 
USDA, and the Treasury Department, to help bring grocery stores to 
underserved areas. This Initiative, included in the President's Budget 
for 2011, would make available more than $400 million per year in 
financial and technical assistance to communities and businesses to 
attract private sector capital that will more than double the total 
investment. The Initiative will support projects ranging from the 
construction or expansion of a grocery store to smaller-scale 
interventions such as placing refrigerated units stocked with fresh 
produce in convenience stores.
    <bullet> To help get America up and moving, HHS specifically will 
expand and modernize the President's Physical Fitness Challenge, and 
double the number of Presidential Active Lifestyle Awards to create 
healthy habits by challenging children to commit to physical activity 5 
days a week, for 6 weeks.
    <bullet> The Department of Housing and Urban Development has begun 
its HUD Healthy Neighborhoods Program involving community health 
promotion. In this pilot program, 10 public housing agencies will use 
the National Institute for Health's heart health curriculum, ``With 
Every Heartbeat is Life,'' to establish strategic partnerships with 
community health centers and other public and private entities in order 
to improve the housing agencies' low-income residents' health 
conditions, including reducing obesity.

    Childhood obesity is a national epidemic that will require a 
national response. The Let's Move! campaign is calling on all sectors 
of society, public and private, to contribute to solutions. Already, we 
have seen key players answering the call. For example, pediatricians 
across America are now moving to regularly monitor children's BMI and, 
for the first time ever, write ``prescriptions'' for simple things 
children can do to increase healthy eating and active play.
                               conclusion
    As ``America's family doctor,'' I want to change the national 
conversation from a negative one about obesity and illness to a 
positive conversation about being healthy and fit. Instead of 
bombarding people with lists of what not to do, we need to empower them 
with what to do to promote health. Healthy eating and physical activity 
should be something all Americans want to do, not something they feel 
they have to do. We need to encourage people to take up activities that 
they enjoy, like swimming, dancing, or biking. We need to show them how 
healthy foods can be affordable, accessible and delicious.
    Americans are more likely to change their behavior if they have a 
meaningful reward. That reward should be something that people can 
feel, that they can enjoy and that they can celebrate. The reward is a 
level of health that allows people to embrace each day and live their 
lives to the fullest without disease, illness, or loss of productivity.
    In closing, I hope that communities across the Nation will use my 
Vision for a Healthy and Fit Nation as a blueprint for action to work 
more effectively, share resources, develop public and private 
partnerships and use innovative solutions for change. Today's obesity 
epidemic calls for committed, compassionate citizens to mobilize and 
demand the health and well-being they deserve. I have heard their call, 
we have all heard their call, and I am honored to do everything in my 
power to help Americans live long and well; to be a healthy and fit 
Nation.
    Thank you for the opportunity to present information on this 
important topic. I would be happy to answer your questions.
                               References
    1. Flegal KM, Carroll MD, Ogden CL, Curtin LR. Prevalence and 
trends in obesity among U.S. adults, 1999-2008. JAMA. 2010 Jan 
20;303(3):235-41. Epub 2010 Jan 13.
    2. Ogden CL, Carroll MD, Curtin LR, Lamb MM, Flegal KM. Prevalence 
of high body mass index in U.S. children and adolescents, 2007-8. JAMA. 
2010 Jan 20;303(3):242-9. Epub 2010 Jan 13.
    3. Flegal KM, Carroll MD, Ogden CL, Johnson CL. Prevalence and 
trends in obesity among U.S. adults, 1999-2000. JAMA 2002 Oct 9; 
288(14):1723-7.
    4. Ogden CL, Flegal KM, Carroll MD, Johnson CL. Prevalence and 
trends in overweight among U.S. children and adolescents, 1999-2000. 
JAMA 2002 Oct 9; 288(14):1728-32.
    5. Flegal KM, Carroll MD, Ogden CL, Curtin LR. Prevalence and 
trends in obesity among U.S. adults, 1999-2008. JAMA. 2010 Jan 
20;303(3):235-41. Epub 2010 Jan 13.
    6. Ogden CL, Carroll MD, Curtin LR, Lamb MM, Flegal KM. Prevalence 
of high body mass index in U.S. children and adolescents, 2007-8. JAMA. 
2010 Jan 20;303(3):242-9. Epub 2010 Jan 13.
    7. Ogden CL, Carroll MD, Curtin LR, Lamb MM, Flegal KM. Prevalence 
of high body mass index in U.S. children and adolescents, 2007-8. JAMA. 
2010 Jan 20;303(3):242-9. Epub 2010 Jan 13.
    8. Clinical Guidelines on the Identification, Evaluation, and 
Treatment of Overweight and Obesity in Adults--The Evidence Report. 
National Institutes of Health. Obes Res 1998 Sep;6 Suppl 2:51S-209S.
    9. U.S. Department of Health and Human Services and U.S. Department 
of Agriculture. Dietary Guidelines for Americans, 2005. 6th ed. 
Washington, DC: U.S. Government Printing Office; 2005.
    10. Flegal KM, Carroll MD, Ogden CL, Curtin LR. Prevalence and 
trends in obesity among U.S. adults, 1999-2008. JAMA. 2010 Jan 
20;303(3):235-41. Epub 2010 Jan 13.
    11. ``Ogden CL, Carroll MD, Curtin LR, Lamb MM, Flegal KM. 
Prevalence of high body mass index in U.S. children and adolescents, 
2007-8. JAMA. 2010 Jan 20;303(3):242-9. Epub 2010 Jan 13.
    12. Flegal KM, Carroll MD, Ogden CL, Curtin LR. Prevalence and 
trends in obesity among U.S. adults, 1999-2008. JAMA. 2010 Jan 
20;303(3):235-41. Epub 2010 Jan 13.
    13. Pleis JR, Lucas JW, Ward BW. Summary health statistics for U.S. 
adults: National Health Interview Survey, 2008. National Center for 
Health Statistics. Vital Health Stat 10(242). 2009.
    14. Flegal KM, Carroll MD, Ogden CL, Curtin LR. Prevalence and 
trends in obesity among U.S. adults, 1999-2008. JAMA. 2010 Jan 
20;303(3):235-41. Epub 2010 Jan 13.
    15. Is CDC 2009. Summary Health Statistics for U.S. Adults: 2007. 
Table 31.
    16. CDC 2005. Health Characteristics of the American Indian and 
Alaska Native Adult Population: United States, 1999-2003. Advance Data 
(356), Table 2.
    17. Pleis JR, Lucas JW, Ward BW. Summary health statistics for U.S. 
adults: National Health Interview Survey, 2008. National Center for 
Health Statistics. Vital Health Stat 10(242). 2009.
    18. Ogden CL, Yanovski SZ, Carroll MD, Flegal KM. The epidemiology 
of obesity. Gastroenterology. 2007 May; 132(6):2087-102. Review
    19. Cynthia L. Ogden, PhD; Margaret D. Carroll, MSPH; Lester R. 
Curtin, PhD; Molly M. Lamb, PhD; Katherine M. Flegal, PhD; Prevalence 
of High Body Mass Index in U.S. Children and Adolescents, 2007-8; JAMA. 
2010;303(3):242-249. Published online January 13, 2010
    20. Wang Y, Zhang Q. Are American children and adolescents of low 
socioeconomic status at increased risk of obesity? Changes in the 
association between overweight and family income between 1971 and 2002. 
Am J Clin Nutr. 2006 Oct;84(4):707-16.
    21. Cockrell Skinner A, Steiner M, Henderson F, Perrin E, Multiple 
Markers of Inflammation and Weight Status: Cross-sectional Analyses 
Throughout Childhood. Pediatrics, March 2010,
    22. Nielsen SJ, Popkin BM. Patterns and trends in food portion 
sizes, 1977-98. JAMA 2003 Jan 22; 289(4):450-3.
    23. Nielsen SJ, Siega-Riz AM, Popkin BM. Trends in energy intake in 
U.S. between 1977 and 1996: similar shifts seen across age groups. Obes 
Res 2002 May; 10(5):370-8.
    24. We Can! Portion Distortion. http//:www.nhlbi.nih.gov/health/
public/heart/obesity/wecan/eatright/distortion.htm.
    25. Youth Risk Behavior Surveillance--United States, 2007. 
Morbidity & Mortality Weekly Report 2008;57(SS-05):1-131.
    26. 2008 Physical Activity Guidelines for Americans. Available at 
http://www.health.gov/paguidelines/guidlines/default.aspx. Accessed 
December 31, 2009.
    27. National Center for Chronic Disease Prevention and Health 
Promotion, Division of Adolescent and School Health, ``National Youth 
Risk Behavior Survey 2007,'' October 2008. http://www.cdc.gov/
HealthyYouth/yrbs/pdf/yrbs07_us_overview.
pdf.
    28. Kaiser Family Foundation, Generation M2: Media in the Lives of 
8- to 18-Year Olds, January 2010. ( http://www.lcff.org/entmedia/
upload/8010.pdf)
    30. Whitaker RC, Wright JA, Pepe MS, Seidel KD, Dietz WH. 
Predicting obesity in young adulthood from childhood and parental 
obesity. N Engl J Med 1997; 37(13):869-873. Unpublished CDC data from 
personal communication with William Dietz at CDC.
    31. Arenz S, Ruckerl R, Koletzko B, et al. Breast-feeding and 
childhood obesity--a systematic review. [Review] Int J Obes Relat Metab 
Disord: Journal of the International Association for the Study of 
Obesity 2004, 28:1247-1256.
    32. Frieden T, Dietz W, Collins J, Reducing Childhood Obesity 
through Policy Change: Act Now to Prevent Obesity, Health Affairs, 
March 2010, Volt. 29. No. 3
    33. Health Affairs, March 2010, Volt. 29. No. 3.
    34. Khan L, Sobush K, Keener D, Goodman K, Lowry A, Kakietek J, 
Zaro S. Recommended community strategies and measurements to prevent 
obesity in the United States. MMWR 58:RR-7, 2009.
    35. Forum on Child and Family Statistics. America's Children: Key 
National Indicators of Well-Being 2009. Available at http://
www.childstats.gov/americaschildren
/famsoc3.asp. Accessed December 29, 2009.
    36. U.S. Department of Education, National Center for Education 
Statistics (NCES), Common Core of Data (CCD), ``State Nonfiscal Survey 
of Public Elementary/Secondary Education,'' 1993-94 through 2006-7. 
State Comparisons of Education Statistics: 1969-70 to 1993-94 (NCES 95-
122), tables 10, 11, and 12, retrieved December 24, 2008, from http://
nces.ed.gov/pubsearch/pubsinfo.asp?pubid
=95122; and National Elementary and Secondary Enrollment Model, 1972-
2006.
    37. Centers for Disease Control and Prevention. Guidelines for 
school and community programs to promote lifelong physical activity 
among young people. MMWR. 1997;46 (No. RR-6):1-36.
    38. Centers for Disease Control and Prevention. Guidelines for 
school health programs to promote lifelong healthy eating. MMWR. 
1996;45(No. RR-9):1-41.

    The Chairman. Thank you very much, Dr. Benjamin, for a very 
eloquent statement. You are going to be a great leader and a 
great example to our country----
    Dr. Benjamin. Thanks.
    The Chairman [continuing]. In moving to what I've often 
referred to as a wellness society.
    I was just handed, this morning, a copy of a speech, a 
remark I gave in the fall of 1991. I said, ``The truth is we're 
spending about $700 billion a year for healthcare in America.'' 
Don't you wish we were still spending that?
    [Laughter.]
    And I said, ``We don't need to spend more money to improve 
the system, we need to spend it better.'' And I said, ``We 
spend more money on treating diseases, but we don't spend 
enough on prevention and wellness.'' I said that in 1991. As my 
mom taught me, ``An ounce in prevention is worth a pound of 
cure.'' And I talked about wellness and getting us into a 
wellness society.
    It seems to me that's where we have to be headed. There has 
to be something that people aspire to. We have to energize our 
country to think about wellness. We also have to start thinking 
about this way, I believe, and that is that right now in our 
country it's easy to be unhealthy and hard to be healthy. 
Shouldn't that be the other way around? It should be easier to 
be healthy and harder to be unhealthy.
    Everything is geared toward being unhealthy. Yes, we take 
elevators instead of stairs, except for some of us. You know, 
we drive the car a block to the store, rather than walking. We 
build neighborhoods without sidewalks, so kids can't walk to 
school. We have prepared foods that are high in fats and 
sodium, sugars, but they're fast, they're easy. All the fast 
foods, if you're in a hurry--we're always in a hurry, 
everyone's in a hurry--any fast food to get us through, 
basically, is not very good for you. It's easy to be unhealthy.
    I have a thing; every time I'm traveling, I go through an 
airport, and if I'm going through an airport around lunchtime 
or something, trying to find something to eat--I mean it's hard 
to find something that's healthy. You can pick anything up 
that's unhealthy. So, somehow we've got to start re-engineering 
things to be easier to be healthy.
    One other thing--I would just ask you, a general thing--
Senator Enzi and I, and, of course, everyone here on this 
committee--Senator Dodd, who chairs the Education 
Subcommittee--we're now meeting with Secretary Duncan on the 
reauthorization of the Elementary and Secondary Education Act, 
which has been dubbed No Child Left Behind from 2002, I think 
it was, or 2002, 2003--and I used to say this to Secretary 
Spellings, you know, if we're not going to leave any children 
behind what about their health? And so, it just occurred to 
me--and we've just started our initial meetings, I haven't said 
anything, brought this up--but maybe we ought to think about 
pulling you in on this Elementary and Secondary Education Act 
to start thinking about what needs to be done in our elementary 
schools to get more health education, more exercise, things 
like that for kids. So, I just sort of ask you, in an open 
session here, Would you be willing to work with us and to work 
with Secretary Duncan on perhaps seeing what we might do in an 
education bill to promote better health for our kids in 
schools?
    Dr. Benjamin. I would be excited about working with you. 
That's exactly what we're calling for in our paper: more 
physical activity in schools. It's recommended that children 
get 150 minutes of exercise a week, as elementary kids, and 225 
minutes for secondary school. And yet, they're not, and many 
schools aren't having as much physical education. PE is kind of 
an afterthought. It used to be that health was taught in PE, it 
was ``health and PE.'' And we're not getting PE, so they're not 
getting health. So, it's really important that we get these 
things back into the schools.
    The Chairman. I saw a figure that, recently--when I was in 
elementary school, we had 1 hour a day. We had 15 minutes in 
the morning, half hour at lunch, 15 minutes in the afternoon, 
which you had to go outside and do things. You couldn't sit 
around. Saw a figure recently that said that 80 percent of the 
elementary schools in America today have less than 1 hour of 
physical exercise a week. A week. So, that's how far we've 
gotten away from that.
    One last question--my time is running out--you were a 
primary care doctor before you became Surgeon General, so 
you've been on the front lines of this. In your judgment, what 
are the greatest obstacles to your patients in being healthy 
and fit and pursuing healthy choices? What are some of the big 
obstacles?
    Dr. Benjamin. The biggest obstacle of the patient 
population that I was seeing is the time that they had. They 
didn't have enough time to do the things. Most of the patients 
understand the issues, they understand that we need to become 
healthier, they need to lose weight. And that's evidenced by 
the amount of money spent on weight-loss products and exercise. 
So, the awareness is there, it's what can they do to actually 
get these things done. Most of the parents are working, or 
some--many of them are working two jobs, and when they come 
home between jobs they don't have the time to cook a good meal. 
They grab whatever they can, the stresses in their life are 
tremendous. And so, we have to find a way to make it easier for 
them, in their day-to-day life, to do the things they know they 
need to do and want to do. That is, make available--
particularly in fast foods and things, available choices that 
are healthy choices, and affordable--because the healthier 
meals are often the more expensive meals. And so, we need to 
make those things available. That's one of our roles, to start 
to bring these things together. Have grocery stores in the 
communities where they live. They're not there. And to bring 
them into those communities so they can be available for that 
mom who's on her way, in between two jobs, to be able to do 
those things. We need to make it easier for them.
    The Chairman. Very good. Thank you very much.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman. And I want to thank 
you for the comments in your full statement.
    Some of the things that I, kind of, caught in the testimony 
that you just gave was to celebrate. I really don't think that 
we celebrate, enough, the average child doing something 
physical. I remember there used to be a program--I think it 
started under President Kennedy--where you got certificates. 
And it was continued later--Schwarzenegger, I think, was the--
well, now Governor--was the head of giving out some other 
certificates. One of the difficulties of that certificate 
program was that you had to be able to do all of the 
categories. And a suggestion that I was given was that there be 
a wider range of things that kids could do, and then 
certificates for doing a certain number of those, so that 
they're encouraged to do, not everything, but the things that 
they have some capability in, hoping that they will come up 
with some kind of a lifetime activity from that.
    One of the difficulties I have with the PE program that I 
grew up under was that I came to hate calisthenics, because 
most of them I wasn't any good at----
    Dr. Benjamin. Right.
    Senator Enzi [continuing]. But there were several other 
things, that were more sports-oriented, that I could do real 
well at. But, we insisted on the calisthenics and kind of drove 
kids out of the PE, which is why I think there isn't as much PE 
in the schools today.
    One of the things I ran across was a suggestion that there 
be recess before lunch instead of after lunch, in that it would 
add to the improvement in the academic performance, as well. 
And I remember my daughter, who was in fourth grade, once 
invited me to come to see her school lunch program. Of course, 
she didn't like the school lunch program, so she brought a sack 
lunch, and one for me. But I was just starting to open my sack 
lunch, and she had her hand up in the air. I said, ``What's 
your hand up for?'' She said, ``You have to have your hand up 
to be able to go out and play.'' And that's what she really 
wanted to do. Some of those free exercises on the playground. 
How do you plan to work with the schools in America to design 
the best policies that can lead to healthier environments for 
kids, like perhaps recess before lunch?
    Dr. Benjamin. Yes, recess is a great thing. Kids should 
have structured play and unstructured play. We are working with 
a number of partners throughout various departments--the 
Education, Agriculture--to make sure that we have more 
activities in the schools, that the school lunches--and the 
meals that are provided in schools--are nutritious. We provide 
water, and, you know, oftentimes kids will think they're 
hungry, and they're really thirsty. So, to have water available 
to them and the ability for them to go out and get a drink of 
water often--they have to get permission for that, so encourage 
that. Good, healthy things in the vending machines, when they 
want to have a snack or something, that they have fruits and 
vegetables--fruits and healthy things in the vending machines, 
available to them. So, those are sort of the things that we 
need--some of the things we need to do, particularly the 
physical activity and extramural activities, even after school, 
things--the playground--involve the parents, because the 
parents are the first teachers. And we've seen that the more 
the parents were involved and the community is involved, the 
better things get to be.
    Senator Enzi. Thank you. And you mentioned water, and that 
brought to mind something else. Among the Native Americans in 
my State, there's a high lactose intolerance. And we provide 
regular milk, not Lactaid. And it's true in all sectors of the 
population, but it's more prevalent there. So, there are things 
that need to be done with the lunch programs and things that 
can help. And what that brought to mind was that in your 
statement you mentioned that there's a higher percentage of 
obesity among rural than there is among urban. Can you tell me 
why you think that might be? I don't disagree with it, it just 
seemed to me like the kids in the rural areas would be out 
doing things more than the kids in the urban area, where 
everything is constrained to buildings. So, it didn't fit with 
some of the other things we talked about.
    Dr. Benjamin. Unfortunately, in rural areas we tend to 
drive everywhere now. We don't walk, like we used to. In inner 
cities, you walk from block to place, where the parking is 
hard. In a rural area, parking is easy and you can--even 
teenagers now get in their car and go across the street just so 
they can drive. And we're not doing the things, the active 
things that we used to do.
    The other thing is we're not playing and doing the 
activities that we tended to do, years ago. We're not seeing 
that, unfortunately.
    Senator Enzi. Yes, I think the computer games are cutting 
into that quite a bit, too. Now, there was also mention of 
building bike paths and sidewalks and that sort of thing. I 
hope we can give a little bit of concentration to how we get 
the rubber to meet the road, because I see a lot of those 
aren't being used. And somehow we've got to get them out there. 
Again, President Kennedy had a hike along the tow path here--I 
think it was a 50-mile hike, and, in those days, nobody hiked, 
and so there were a lot of blisters and bad shoes and that sort 
of thing.
    So, I look forward to working with you on this. And my time 
has expired.
    Thank you.
    Dr. Benjamin. One of the things about the activities 
outside the parks and things, and walking paths, is that 
oftentimes they're not safe. And the people need to be assured 
that they're safe, and that they're safe when they go out and 
play, that local governments have made them safe and 
comfortable for families to go out.
    Senator Enzi. Thank you.
    The Chairman. Thank you, Senator Enzi.
    And now the person who has been our leader on children and 
families for so long, and has been advocating for healthier 
kids for, well, as long as I've been here anyway, and that's 30 
years.
    Senator Dodd.

                       Statement of Senator Dodd

    Senator Dodd. Thank you very much, Mr. Chairman, and let me 
thank you for doing this today. You pointed out, your 
involvement in this issue goes back a long time. I think we all 
have a renewed sense of hope that there's a possibility we're 
going to start really taking some very concrete actions.
    We don't have to debate the issue. A lot of times it takes 
you years to convince people the merits of the issue. And then 
you go to the next step: Well, then what do you do about it? 
So, we're, I hope, well beyond--in a city that seems absolutely 
frozen in its ability to come to at least agreement on what the 
problems are sometimes. Here, that's not the issue. So, we 
thank you.
    Do we call you--do I call you ``Doctor'' or ``General''?
    Dr. Benjamin. ``Doctor'' is good.
    Senator Dodd. ``Doctor'' is fine, all right. Surgeon 
General, the other----
    The Chairman. Those are admiral stripes.
    Senator Dodd. I know. And I know they are. That's right. 
Navy----
    [Laughter.]
    The Chairman. I was in the Navy.
    Senator Dodd. Navy, I know.
    [Laughter.]
    Anyway, it's good to have you with us, and thank you.
    I have some opening comments that I'll just ask, Mr. 
Chairman, to be made a part of the record.
    Bill Frist, who was here and acted as chairman of this 
committee, had a strong interest in the subject matter, a 
physician. Jeff Bingaman, who's been a member of this 
committee, as well, I think, in the 107th, 108th, and 109th 
Congress, we had hearings and bills and so forth, all focusing 
on this issue. And, as you know, we're getting into the throes 
of this healthcare debate, still ongoing. This committee was 
deeply involved in that issue for a good part of last year.
    The numbers I was looking at that--36 percent--obese 
Americans spent 36 percent more for healthcare than others, and 
77 percent more on medications. The increase in the spending on 
healthcare, the dollars--out of every $4 in increased 
healthcare cost, one of those dollars out of four is directly 
related to obesity. Again, an issue where if you're looking to 
bring down costs and, this is clearly an area we can do that--
and, as you point out, so much of it begins early on. You used 
to talk about a lot of these problems that were the adult onset 
of diabetes and various other issues that didn't come until 
adulthood, now we're looking at a staggering number of these 
problems showing up very, very early in children--even in 
infants.
    Let me just ask you two questions, if I can. One is, what's 
really needed here--and I think it's wonderful that the First 
Lady is taking such a strong interest in identifying this as a 
priority--it's a great issue to be involved. And that kind of 
profile will help us, I think, tremendously. But, what we're 
going to need, because there's so many various committees, even 
up here, that can--this is the good news--that can claim 
jurisdiction or a part over this thing. It involves the Finance 
Committee and doing things to the tax structure, the Ag 
Committee--clearly, what Tom has been on, and done such a great 
job in talking about this issue--clearly, with food and 
nutrition and things; obviously, this committee. You can almost 
go across the board. And there's a role--sometimes it's a 
problem when you get too many chefs in the process here, but 
this ought to be an asset for us. What's missing is the 
coordination. We sort of have these battles here over 
jurisdiction. And it really does need a coordinating effort. 
And I'd be interested in knowing, Doctor, whether or not this 
is something--a role--if you've talked about this--how we can 
coordinate this, in a way. And we all have the witnesses, and 
we'll have more this morning, some wonderful people from the 
American Academy of Pediatrics that I worked so closely with 
over the years, and the NFL, which we're excited about having, 
as well, and taking on this issue and elevating the profile of 
it. But, coordinating the activities seem to be critical. 
That's my first question.
    And the second question--if you had to pick what time of 
the day--I know the schools are an issue, and recess and so 
forth, and so much of that is local and cost. I've been told, 
in some cases, one of the reasons there's less recess time is 
because--having the number of teachers that can actually 
supervise can sometimes be a reason or problem, why you have 
less recess availability. But, there's one time, I think, 
during the day in which all of us can agree, given the 
economics in our country, the incomes, the number of single-
parent households, is that after-school period. I mean, there's 
one period where--you can argue about schools and doing things, 
but once that child leaves that school and that afternoon and 
that period before their parents come home or that dinner 
arrives, that three or four, five--we know, for instance, it's 
a dangerous time, be that either as victim or to victimize, 
what can happen, in that window.
    John Ensign and I have introduced some legislation again 
this week on the after-school area. This is an area where I 
think we can play a very critical role. We can provide 
resources--we've done a lot of this already. But, I wonder if 
you'd like to just comment, as a second question, about that. I 
realize there's a danger in picking one time of the day we can 
focus on--and I'm not excluding the others. But, this is one 
area where I think you'll get universal recognition that this 
is that time when unsupervised activities, such as video games, 
contribute to an awful lot of the problems we see and offers, I 
think, an opportunity to address a lot of what we're talking 
about.
    Those are two issues I have for you.
    Dr. Benjamin. Well, the first question, about coordination, 
the President has established a Task Force on Childhood 
Obesity. And that task force is going to review each and every 
government program that's related to child nutrition and 
physical activity. And once they do that, they're going to come 
out with a national action plan, with benchmarks that help us 
reach the goal, the First Lady's goal of reversing childhood 
obesity within one generation. So, that task force should be 
starting to look at that.
    Regarding the after-school, I think that's a tremendous 
issue that you're talking about. It's really important. We 
can't do it alone. Government can't do it alone. We need 
partners. And that's where the parents, the community comes in, 
the industry, the medical community. Starting to do things like 
extramural activities after school, allowing us to use the 
schools and the gyms or the walking tracks, to keep the lights 
on. That takes everyone's effort, and from the entire community 
at the local level, to be able to do those things. It gets the 
kids moving, it gets them to learn to play with each other, the 
social skills they build up. And it gets the entire community 
involved. And it's tremendous, and I agree with you. I think 
that's one of the things that we need to involve our partners 
with.
    Senator Dodd. Did you--who's on the task force again?
    Dr. Benjamin. There's a number of agencies throughout 
government that's on there--HHS, HUD, Education, Department of 
Ag--USDA--and others. And I think they can involve anyone else 
they like.
    Senator Dodd. If it's not part of it, let me urge to be a 
part of it--Department of Transportation----
    Dr. Benjamin. OK.
    Senator Dodd [continuing]. Ought to be a part of it. It may 
be, and I'm not suggesting it's not, but if it's not----
    Dr. Benjamin. It may be.
    Senator Dodd [continuing]. You ought to insist it be a part 
of it, because it's a critical--I mean, there's so many diverse 
interests----
    Dr. Benjamin. Right.
    Senator Dodd [continuing]. Both at the executive branch as 
well as the congressional level, that sometimes I think it's 
the fact that--the mere existence of the diversity of it 
sometimes is daunting, in terms of how you coordinate it all. 
That's why I raised that issue.
    I thank you very much, am excited about your stewardship. 
And you've got a great leader, in Tom Harkin of this committee. 
There's a long history of his involvement and his ideas and 
thoughts on how we do this. And I think we all ought to get 
excited. And again, if the only thing you're motivated by is 
cost--we now know, without any question, categorically, that if 
we don't address this issue, it is going to mount as a cost 
issue, not to mention the hardship and the difficulty and the 
heartache that families and individuals go through as a result 
of obesity.
    So, thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you very much, Senator Dodd.
    Another Senator who is physically fit and exercises all the 
time, and a personal example of fitness, Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Dr. Benjamin, welcome. We thank you for being part of this 
hearing. I thank you for highlighting a North Carolina study in 
your opening statement. And let me just say, you have a lot of 
fans and a lot of colleagues who think a lot of you, in North 
Carolina. And I know you already know that.
    This is a very difficult issue to solve. We can plan an 
after-school program, but for most communities, that means that 
a child is left at a program without a bus to get home. We've 
got to rethink our entire education system, if in fact, we want 
to integrate education and physical fitness together. Without 
that we'll come up short or we will leave students behind that 
don't have the transportation needs.
    Let me ask you just a couple of questions. Last year, Dr. 
Coburn and I introduced the Patients' Choice Act. Under our 
bill, the CDC would have established a Web-based prevention 
tool that would create a personalized prevention plan for 
individuals. Do you think such a tool is a resource for parents 
and healthcare providers that they could use to promote better 
health?
    Dr. Benjamin. Yes. I'm open to all innovative ideas, and 
that's certainly an innovative one. And anything we can do to 
help parents, help the communities, do the things they want to 
do, particularly to get healthy and fit, would be good.
    Senator Burr. We tend to always be focused on the 
traditional things. And I think we've talked about a lot of 
traditional things. Let me just cite one study, real quick. 
Fifty percent of the American people receive their information 
through traditional sources--newspapers, TV, radio. Fifty 
percent today receive it through social networking.
    Dr. Benjamin. Right.
    Senator Burr. There's an incredible world of communication, 
that targets exactly the folks we're after, that goes 
unmentioned in a lot of the educational proposals that are out 
there.
    Mr. Chairman, let me highlight one thing that I'll make 
available to the committee if we pursue this with further 
hearings. In Kannapolis, NC, a converted textile town, is the 
largest planned research park in the world for human nutrition. 
It is where academia has come together with business to look 
specifically at the nutrition of America. And from the research 
of academia, mixed with corporations, influence, then, the 
nutrition standards of the products that find their way on the 
shelf. And I think that's an excellent place for us to look and 
maybe get some guidance from them.
    One of the areas that we do have some direct ability to 
manipulate would be what the Federal Government pays for the 
free and reduced school breakfast and lunch. Let me ask you 
honestly, Should we set a nutritional standard that must be met 
for that meal that the Federal taxpayers are providing? Should 
we set the course, by example, and say to the schools, ``It's 
got to meet this''?
    Dr. Benjamin. You know, that's one of the things we call 
for, to have higher nutritional standards in the school 
lunches, school programs, and the meals that they serve in 
addition to those. I tend to work the other way. I think the 
parents should be demanding from us that we have higher 
nutritional standards in those programs--and we should be 
delivering them to them. So, the whole idea, for me, is to 
say--make sure that the parents, the communities, they're the 
ones asking us to deliver for them. So, the other way around.
    Senator Burr. Well, as Senator Dodd mentioned, every school 
system is a little bit different. We can't lay this Federal 
architecture on them and say, ``You're going to do it this 
way.'' But, as Senator Harkin and I have talked, we do, and 
can, influence what we pay for. And my question is very simple, 
Should we lead by example? Should we say, for that at-risk 
population, ``We're going to set a standard, and you're going 
to meet that standard.'' Hopefully, by us doing that, we 
influence everything else that comes out of that cafeteria. 
Because the other students look at it and see value to it, or 
parents say, ``Well, you're doing it here, why don't you do it 
for the general line?'' I think, in fact, it would be good 
sense. If you required it for a certain portion, we would 
influence, then, everything that was in that cafeteria.
    Dr. Benjamin. It's hard to argue with increasing standards 
and improving.
    Senator Burr. Well, I thank you for that. Let me get to one 
last thing before my time runs out.
    I think it's extremely difficult to really penetrate this 
problem, when so many Americans don't have a medical home. Now, 
we have our differences as to how we get there. And Senator 
Harkin and I agree totally on the need for prevention, 
wellness, and chronic-disease management. We may differ on how 
we get there slightly, but we know we have to get there. It's 
impossible for me to believe that we can fully take advantage 
of any investment in prevention, wellness, and chronic-disease 
management if, in fact, the delivery point of healthcare is an 
emergency room, where you see a doctor that's trained to treat 
trauma, not to educate about chronic disease or about 
nutrition. Now, your specialty is pediatrics?
    Dr. Benjamin. Family medicine.
    Senator Burr. Family medicine.
    Dr. Benjamin. I'll be an honorary pediatrician.
    [Laughter.]
    Senator Burr. Well, I think the Chairman told me it was 
pediatrics. Family medicine. But, you understand the importance 
of being an integral part of the lives and the activities, 
instructing, educating. It's part of your education. The 
difficulty that we've got today is, the normal delivery point, 
for a lot of Americans, is not the point where that specialty 
was actually taught, that there's an educational component to 
healthcare.
    I would only say this. Were we to accomplish creating a 
medical home--the best example is Medicaid; every State's got 
it. To me, it's the worst delivery system in the world, because 
it funnels everybody to an emergency room when they're sick. 
There's no mechanism, in most States, for them to get education 
on staying well. How do we change this?
    Dr. Benjamin. I certainly believe the medical home is an 
important concept. And I even talk about it in my paper--my 
vision paper--that the role of clinicians, physicians, nurses, 
and other clinicians, have a tremendous role in this obesity 
epidemic. We're often the people who are well respected and who 
are considered authorities, and people will listen to them. The 
parents are the first teachers; and I think the doctors and the 
nurses are the second. And so, we have a tremendous role. We 
need to start doing a little bit more than telling patients, 
``You need to lose weight.'' We do that very well. But, we need 
to go a little step further and talk to them about how 
important it is, and the consequences of it, and what they can 
do, and be a part of the community. The doctors and the nurses 
and other clinicians in the community are often leaders in 
their community. And when you bring all of them together--the 
school board, the chamber of commerce, business communities--
and bring everyone together in a local community, you can start 
to address a problem.
    This problem can't be done by one group. I think the 
medical home is certainly a place that people can feel 
comfortable. They'll trust their clinicians, and they can start 
there. But, it's going to take a lot more, as well.
    Senator Burr. The Chairman was very grateful. He came to my 
office, and we sat down and talked for about 45 minutes, and 
one of the subjects was obesity. And I told him about a unique 
program, I hadn't seen but I'd heard about. And I promised him 
I'd get him the information.
    I still owe it to you.
    A businessman in South Carolina that was very successful, 
and--in that northwest section of South Carolina--he started a 
program, in the public schools, that he funded. Wasn't State 
funding, wasn't Federal funding. Every student had an ID card, 
and there was a scale in every school. And, on a regular basis, 
they could put their ID card in, and the scale recognized them 
and it tracked their trend of weight. And when the trend line 
was positive, it spit out discounts for certain things that you 
could purchase or places you could eat in that town. It 
rewarded those students for action that they had taken to fall 
more within the norm. I share that with you, I've already 
shared it with the Chairman. And it is something we'll look at. 
But, just to share with everybody about how far out of the box 
I think some people have gotten, this isn't about doing it a 
traditional way. If we keep it limited there, we're not going 
to get this done. But, I think, if we do invest by reaching out 
in America and saying, ``We don't care how you do it, we just 
want to get there,'' we probably won't have to drive this. 
People across the country will drive it.
    I thank the Chair.
    Dr. Benjamin. I agree with you. I think that people are 
going to rise up and do it themselves. And the more innovative 
ideas are often out there in the community, in the businesses, 
the people who are really the experts.
    The Chairman. I thank the Senator.
    I just want to say that we thought his and Senator Coburn's 
idea on the CDC Web portal was so good that Senator Dodd 
included it in our health reform bill.
    Do we get your support?
    [Laughter.]
    Senator Burr. You know the difficulty is you--all three of 
you have talked about your experiences in school, and I can't 
think back that far.
    [Laughter.]
    The Chairman. Senator Merkley.
    Senator Merkley. Thank you very much. My colleague from 
North Carolina may be a specimen of physical fitness; me, not 
so much. So, it gives me a little bit of--as I wrestle with 
figuring out how to exercise and how to eat healthy--
perspective on the challenge for our children.
    My wife is a nurse, and I can't tell you, during the 10 
years she worked at a hospital, how often she'd come home and 
just say, ``You wouldn't believe how big American children are 
getting.'' And it is certainly a challenge.
    In Oregon, we've done a number of things to try to take 
this on. And we are now third in the Nation--I believe, behind 
Utah and Minnesota--in terms of childhood obesity, on the 
better end of that spectrum, if you will. So, I thought I'd 
mention the nine things that Oregon has done.
    First, is to adopt a bill that promotes back-to-work breast 
feeding. And that bill is in the larger healthcare bill. It was 
adopted unanimously by this committee. And I hope that we'll 
have that, nationwide, in the future.
    Second is to prohibit or limit foods of low nutritional 
value in childcare centers.
    Third is healthy foods for healthy students, which sets 
nutrition standards and guidelines for foods and beverages; 
again, trying to have the healthier food in the schools.
    The fourth is a law requiring regular physical activity in 
schools, with a number of minutes each week specified that 
there has to be a physical activity.
    Then there's a curriculum that's required for obesity 
prevention, restrictions on junk-food marketing in the schools, 
investment in safe hiking and pedestrian routes to try and 
encourage more activity to and from school. And then, a Farms 
to Schools Program to encourage better nutrition. I saw many of 
these ideas in your presentation, but, I did want to ask you to 
expand on the concept of ``food deserts'' and what that is and 
how we tackle that.
    Dr. Benjamin. Many of the communities don't have grocery 
stores. They basically have convenience stores--gas stations--
and that's where they have to get their food--or get a bus or 
public transportation, sometimes two buses, to go to get a 
grocery store. And so, there are no opportunities for them to 
have fresh fruits and vegetables and healthy foods. They're not 
in their communities. And so, those ``food deserts'' exist in 
urban areas and in rural areas.
    And there's a number of programs that's been kind of 
working on this issue. There's one in Pennsylvania that has--I 
think it's called Fresh Food Financing. And this program is to 
basically present capital for companies to go into these 
communities, where they couldn't get financing before. And 
they've shown, now, that they put a number of grocery stores in 
these communities and allowed the citizens to be able to shop 
where they live.
    Senator Merkley. Well, that's great. I appreciate that. I 
certainly saw that when I was working in the inner city. I saw 
that firsthand and it may be a tough issue to get our hands 
around, but identifying it and trying out some of these 
approaches you're presenting are a very good idea.
    When I first saw that bullet point, I thought it said to 
eliminate ``food desserts.''
    [Laughter.]
    I thought, well--no, no. Don't go there, please. Smaller 
portions, yes, absolutely. Little moments of joy in our life 
that we have to hold onto.
    Dr. Benjamin. Every now and then, they're good.
    Senator Merkley. Yes. In moderation.
    Dr. Benjamin. That's right.
    Senator Merkley. In moderation.
    One of the things that is apparent, as my kids go through 
grade school and now through middle school, is that the 
activities were all free when I was in grade school. I came 
from a working-class community, but there were no fees. I think 
that was generally the standard across the country--that 
activities associated with school were free. We also had free 
summer open gym activities and so forth. Now everything has a 
fee on it. And I'm wondering if we've been able to determine 
the degree to which that structure of putting fees on physical 
activities--if you're going to play basketball, you're going to 
pay this, you're going to pay whatever--is having a negative 
impact in our efforts to take on obesity.
    Dr. Benjamin. Well, certainly, logically--it sounds logical 
that that would be the case. That is certainly something we 
could do a little more study on, some research on. We have the 
CDC and ARC and NIH that are doing studies as to finding out 
why we have this obesity epidemic, and how to combat it. So, 
that would be something I think we could certainly look into. 
It's worthy of it.
    Senator Merkley. Well, I think that'd be very interesting. 
I've noticed that some activities used to be completely school 
activities--say, for example, swimming--have become more club 
activities. And the cost goes way, way up and, I think, 
decreases access for many children. It can't help but have a 
negative--but, I'm wondering how much--impact, so that would be 
wonderful to study that.
    Thank you very much for your presentation and your focus on 
this very important issue, as you have pointed out in your 
presentation, not just for our children, but then childhood 
obesity becomes adult obesity, adult diabetes, etc., and a huge 
healthcare issue. I think one of the things that, in the course 
of this healthcare debate over the last year, is--we, too 
often, have a sick-care system rather than a healthcare system. 
And tackling the issues that lead to childhood obesity, it 
would be part of a much stronger healthcare system.
    Thank you.
    Dr. Benjamin. Thank you.
    The Chairman. Thank you very much, Senator Merkley.
    Dr. Benjamin, again, congratulations on your assumption of 
this very important job. Thank you for your leadership in this 
area. We look forward to working with you to, really, seriously 
address this. And, of course, the First Lady has taken a great 
leadership role on this, and, as you pointed out, we're getting 
all the different departments put together. I hope we have the 
Department of Transportation involved, I'm not certain, but 
we'll look at that and make sure that they're part of it also, 
of this team effort.
    Dr. Benjamin. Great. We will be going around the country, 
talking about issues, and would like to invite any of you, when 
I'm in your districts, to be a part of that, as well.
    The Chairman. Dr. Benjamin, thank you very, very much for 
your leadership. You are excused. I know you have another 
appointment that you have to get to.
    And we'll bring our second panel up.
    Thank you very much, Dr. Benjamin.
    Dr. Benjamin. Thank you.
    The Chairman Now we'll call our second panel. That's Dr. 
Sandra Hassink, chair of the American Academy of Pediatrics, 
Obesity Leadership Workgroup. Dr. Hassink is a pediatrician and 
director of the Nemours Pediatric Obesity Initiative at AI 
DuPont Hospital for Children, in Wilmington, DE; also assistant 
professor of pediatrics at Jefferson Medical College at Thomas 
Jefferson University, in Philadelphia, PA.
    Then we have Dr. Joe Thompson, director of the Robert Wood 
Johnson Foundation, Center to Prevent Childhood Obesity. Dr. 
Thompson is also the Arkansas surgeon general, the director of 
the Arkansas Center for Health and Improvement, and associate 
professor in the University of Arkansas for Medical Science's 
Colleges of Medicine and Public Health. He was originally 
appointed as the chief health officer for the State of Arkansas 
by then-Governor Mike Huckabee in 2005, with whom I have 
visited on a couple of occasions about this very issue.
    And then we have, not a doctor, but Rashard Mendenhall, who 
is a running back with the Pittsburgh Steelers. He grew up in 
Skokie, IL, played college football at the University of 
Illinois. And someone said he ran all over the University of 
Iowa, but I don't know about that, now.
    [Laughter.]
    We won't get into that. And the Big Ten.
    He was drafted by the Steelers, 23rd overall in the 2008 
NFL Draft, and was part of the Pittsburgh Steelers team that 
won the Super Bowl XLIII. Mr. Mendenhall has been using his 
role-model status to encourage kids to be physically active by 
participating in the NFL's PLAY 60 Initiative. And we'll have 
more to say about that, but it's encouraging kids to be 
physically active for 60 minutes every day. So, we look forward 
to hearing from Mr. Mendenhall, also.
    We'll start, first, with Dr. Hassink.
    Again, all of your statements will be made a part of the 
record in their entirety, and we ask if you could summarize in 
5 or 7 minutes; we'd sure appreciate it.

    STATEMENT OF SANDRA G. HASSINK, M.D., MPH, FAAP, CHAIR, 
 AMERICAN ACADEMY OF PEDIATRICS OBESITY LEADERSHIP WORKGROUP, 
                         WILMINGTON, DE

    Dr. Hassink. Thank you very much, and good morning. And I 
thank you for the opportunity to testify before this committee 
today.
    As you heard, my name is Dr. Sandra Hassink, and I'm proud 
to represent the American Academy of Pediatrics.
    The rapid increase in the prevalence of childhood obesity 
is nothing short of alarming. By 2006, 30 percent of U.S. 
children were overweight and 15.5 percent were obese. During 
their youth, obese children and adolescents are more likely to 
have risk factors associated with cardiovascular disease, such 
as high blood pressure, high cholesterol, and type 2 diabetes. 
Obese children are more likely to experience acute metabolic 
and orthopaedic emergencies, chronic illnesses, such as 
diabetes, liver disease, and obstructive sleep apnea, as well 
as increased mental health issues. Obese children also 
experience decreased physical function and delayed or altered 
developmental trajectories due to the physical limitations of a 
significantly increased body mass. Severely obese children and 
adolescents have lower health-related quality of life than 
children and adolescents who have normal BMI, as well noted by 
Senator Harkin.
    Let me share with you a little bit of the clinicians' 
perspective. In the past 3 months, patients at my clinic have 
included a 2-year-old Hispanic girl, who weighed 45 pounds, 
whose mother wanted someone to talk to about her child's 
weight; a third-grade boy, who told me he never goes outside--
not that he doesn't play outside, he does not even go outside; 
a 15-year-old girl, with suicidal thoughts, who feels she 
doesn't fit in with anyone else; and a 9-year-old weighing 290 
pounds with obesity-related back pain and liver disease. How do 
we help these children?
    First and foremost, we must recognize that there's no 
single factor responsible for obesity. It is the end result of 
a complex interplay of different issues. Any solution must, 
therefore, be equally complex and multifaceted. But, the good 
news is that we can help children with overweight and obesity, 
and we're learning more every day about the most effective ways 
of doing so.
    In addition to those troubling cases noted above, this year 
my clinic has also seen success stories, like the 3-year-old, 
whose BMI went from the 95th to the 85th percentile after four 
visits, and the 16-year-old boy with hypertension, who had 
gained weight rapidly his entire life, but was able to lower 
his BMI from 33 to 30 and begin to reduce his elevated blood 
pressure.
    I'd like to share with you some of the range of resources 
that the Academy of Pediatrics provides to help children, 
families, and parents fight childhood obesity.
    AAP maintains all of its tools and resources for families, 
clinicians, and policymakers at a centralized Web site--
aap.org/obesity--as well as a newly created Web site just for 
parents--healthychildren.org--giving parents more access to 
healthy lifestyle resources.
    The AAP also publishes material for parents, including 
books, brochures, and handouts that produce healthy, active 
living. Here you have one called ``Food Fights,'' to help 
parents of young children. ``Learn How to Manage Mealtimes,'' 
this is a book on a guide to childhood obesity for parents.
    The AAP is a key partner with First Lady Michelle Obama in 
her recently announced, Let's Move initiative. As part of this 
effort, the AAP pledges to continue urging pediatricians to 
calculate and plot BMI at every well-child visit. And we 
provide free downloadable prescriptions for healthy, active 
living, that pediatricians can give to all patients.
    For pediatricians, multidisciplinary teams, and other 
healthcare providers, the AAP is proud to lead the development 
of Bright Futures. This is a set of comprehensive guidelines 
for well-child care. And of the 10 themes in Bright Futures, 
three are promoting healthy weight, promoting healthy 
nutrition, and promoting physical activity.
    The AAP was intimately involved in the development of the 
expert committee recommendations regarding the prevention, 
assessment, and treatment of child/adolescent overweight and 
obesity, which provide comprehensive guidelines on the subject. 
We also provide our membership and other healthcare providers 
with policy statements that guide the prevention and treatment 
of obesity and its co-morbidities.
    We provide a wide range of clinical tools to pediatricians 
and other healthcare providers, such as online BMI calculators, 
parent handouts and brochures for the office, growth charts, 
weight management protocols. We have created model forms to 
document visits and coordinate care with other providers, and 
coding resources so that pediatricians can get reimbursed 
appropriately. And we have quality improvement initiatives for 
practices.
    We publish books and handouts for physicians on preventing 
and treating obesity, and highlight obesity issues regularly in 
our publications and scholarly journal pediatrics. And we have 
offered continuing medical education for pediatricians and 
other healthcare providers on childhood obesity through online 
learning, chapter meetings and publications, national 
conferences, and other venues.
    We also are engaged in a whole array of partnerships to 
promote various aspects of healthy active living. For example, 
the AAP was a lead participant in the Alliance Healthcare 
Initiative, a collaborative effort to offer comprehensive 
healthcare benefits to children and families for the 
prevention, assessment, and treatment of childhood obesity. 
Partners included in the Alliance were Alliance for a Healthier 
Generation, American Dietetic Association, AETNA, Blue-Cross/
Blue-Shield of North Carolina, Blue-Cross/Blue-Shield of 
Massachusetts, WellPoint, and PepsiCo. Be Our Voice is a 
partnership on community advocacy around obesity with a 
national initiative for child healthcare quality, the 
California Medical Association Foundation, and the Center to 
Prevent Childhood Obesity, and is sponsored by the Robert Wood 
Johnson Foundation.
    Finally, the AAP is engaged in a multitude of efforts to 
effect policy changes at the local, State, and Federal level to 
help reverse the tide of childhood obesity.
    In conclusion, the American Academy of Pediatrics commends 
you, Mr. Chairman, for convening this hearing on the important 
and timely issue of childhood obesity. I appreciate this 
opportunity to testify, and I look forward to your questions.
    [The prepared statement of Dr. Hassink follows:]
        Prepared Statement of Sandra G. Hassink, M.D., MPH, FAAP
                                summary
    Childhood obesity is generally recognized as one of the most 
pressing pediatric medical issues of this generation. No single factor 
is responsible for obesity; obesity is the end result of a complex 
interplay of different issues. Experience is teaching us that obesity 
is a multi-factorial problem that requires an equally sophisticated and 
comprehensive solution.
    Childhood obesity continues to be a leading public health concern, 
as these children are more likely to be obese as adults and are 
therefore at a higher risk for a range of health problems throughout 
their lives. Overweight and obesity and their associated health 
problems also have a significant economic impact on the U.S. health 
care system. Significant disparities in childhood obesity rates exist 
among races, sexes, income levels, and geographic areas.
    While the challenges are significant, the good news is that we can 
help children with overweight and obesity, and we are learning more 
every day about the most effective ways of doing so.
    The American Academy of Pediatrics (AAP) provides a range of 
resources to pediatricians to help them care for their patients. These 
include Web sites, comprehensive guidelines for well-child care, 
clinical guidance and tools for treatment, books and publications, and 
continuing medical education.
    The AAP has also undertaken a range of projects to explore both 
clinical and community-based models for reducing childhood obesity. The 
AAP has forged partnerships with numerous organizations and both given 
and received grants for innovative efforts related to childhood 
obesity. Furthermore, the AAP has assisted in the development of and/or 
endorsed efforts such as the First Lady's Let's Move! initiative and 
the 5-2-1-0 campaign. The AAP is engaged in a multitude of efforts to 
effect policy changes at the Federal, State, and local levels that will 
help reverse the tide of childhood obesity.
                                 ______
                                 
    Good morning. I appreciate this opportunity to testify today before 
the Committee on Health, Education, Labor, and Pensions regarding 
childhood obesity. My name is Sandra G. Hassink, MD, FAAP, and I am 
proud to represent the American Academy of Pediatrics (AAP), a non-
profit professional organization of more than 60,000 primary care 
pediatricians, pediatric medical sub-specialists, and pediatric 
surgical specialists dedicated to the health, safety, and well-being of 
infants, children, adolescents, and young adults. I currently chair the 
AAP's Obesity Leadership Workgroup and represent the mid-Atlantic 
States on the AAP's Board of Directors. I direct the Nemours Pediatric 
Obesity Initiative at AI duPont Hospital for Children in Wilmington, 
DE, and I have been taking care of children with overweight and obesity 
since 1988. I also serve as the chair of the Hospital Ethics Committee 
and am Assistant Professor of Pediatrics at Jefferson Medical College 
at Thomas Jefferson University in Philadelphia, PA.
    Childhood obesity is generally recognized as one of the most 
pressing pediatric medical issues of this generation. Experience is 
teaching us that obesity is a multi-factorial problem that requires an 
equally sophisticated and comprehensive solution.
                    background on childhood obesity
    The rapid increase in the prevalence of childhood obesity has 
alarmed public health agencies, health care clinicians, health care 
researchers, policymakers and the general public. In 2005-6, 30.1 
percent of children were overweight (defined as at or above 85 percent 
of body mass index (BMI) for age) and 15.5 percent were obese (at or 
above 95 percent of BMI for age).\1\
---------------------------------------------------------------------------
    \1\ Ogden CL, Carroll MD, Flegal, KM. High Body Mass Index for Age 
Among U.S. Children and Adolescents, 2003-6. JAMA 2008; 299(20):2401-
2405.
---------------------------------------------------------------------------
    Childhood obesity continues to be a leading public health concern, 
as these children are more likely to be obese as adults and are 
therefore at a higher risk for a range of health problems throughout 
their lives. Obese adolescents have an 80 percent likelihood of 
becoming obese adults.\2\ One landmark study found that 25 percent of 
obese adults were overweight as children, and that if overweight begins 
before 8 years of age, obesity in adulthood is likely to be more 
severe.\3\
---------------------------------------------------------------------------
    \2\ Whitaker RC, Wright JA, Pepe MS, Seidel KD, Dietz WH. 
Predicting obesity in young adulthood from childhood and parental 
obesity. N Engl J Med 1997; 37(13):869-873.
    \3\ Freedman DS, Khan LK, Dietz WH, Srinivasan SR, Berenson GS. 
Relationship of childhood overweight to coronary heart disease risk 
factors in adulthood: The Bogalusa Heart Study. Pediatrics 
2001;108:712-718.
---------------------------------------------------------------------------
    During their youth, obese children and adolescents are more likely 
to have risk factors associated with cardiovascular disease (such as 
high blood pressure, high cholesterol, and Type 2 diabetes) than are 
other children and adolescents. In a population-based sample of 5- to 
17-year-olds, 70 percent of obese children had at least one 
cardiovascular disease risk factor, while 39 percent of obese children 
had two or more cardiovascular disease risk factors.\4\ Further, obese 
children are at a higher risk for a number of other short- and long-
term health outcomes. Specifically, obese children are more likely to 
experience acute metabolic and orthopedic emergencies, chronic illness 
such as Type 2 diabetes, liver disease, and obstructive sleep apnea as 
well as increased psychosocial morbidity. Obese children also 
experience decreased physical function and delayed or altered 
developmental trajectory due to the physical limitations of a 
significantly increased body mass. Severely obese children and 
adolescents have lower health-related quality of life than children and 
adolescents who have a normal BMI. In fact, severely obese children and 
adolescents experience a similar quality of life as children diagnosed 
with cancer.\5\
---------------------------------------------------------------------------
    \4\ Freedman DS, Mei Z, Srinivasan SR, Berenson GS, Dietz WH. 
Cardiovascular risk factors and excess adiposity among overweight 
children and adolescents: the Bogalusa Heart Study. Pediatrics, 2007 
Jan;150(1):12-17.e2.
    \5\ Schwimmer JB, Burwinkle TM, Varni JW. Health-Related Quality of 
Life of Severely Obese Children and Adolescents. JAMA 2003; 289:1813-
1819.
---------------------------------------------------------------------------
    Overweight and obesity and their associated health problems also 
have a significant economic impact on the U.S. health care system. 
Medical costs associated with overweight and obesity may involve direct 
and indirect costs. Direct medical costs may include preventive, 
diagnostic, and treatment services related to obesity. Indirect costs 
relate to loss of income from decreased productivity, restricted 
activity, absenteeism, and income lost by premature death. According to 
a 2009 study of national costs attributed to overweight and obesity, 
medical expenses may have reached as high as $147 billion in 2008.\6\ 
Approximately half of these costs were paid by Medicaid and Medicare. 
Obesity-associated annual hospital costs for children and youth more 
than tripled over two decades, rising from $35 million in 1979-81 to 
$127 million in 1997-99.\7\
---------------------------------------------------------------------------
    \6\ Finkelstein EA, Trogdon J, Cohen J, Dietz W. Annual medical 
spending attributable to obesity: Payer- And Service-Specific 
Estimates. Health Affairs 28, No. 5, 2009, PP. w822-831.
    \7\ ``Preventing Childhood Obesity: Health in the Balance, 2005,'' 
Institute of Medicine.
---------------------------------------------------------------------------
    Although there has been an overall increase in child obesity rates 
in the United States in recent years, significant disparities exist 
between races, sexes and income levels. According to the Centers for 
Disease Control and Prevention (CDC) National Health and Nutrition 
Examination Survey (1976-80 and 2003-6), the prevalence of obesity has 
significantly increased for years 2003-6 compared to the initial study 
in years 1976-80. For all children aged 2 to 5 years, obesity 
prevalence increased from 5 percent to 12.4 percent; for those aged 6 
to 11 years, prevalence increased from 6.5 percent to 17 percent; and 
for those aged 12 to 19 years, prevalence increased from 5 percent to 
17.6 percent. In 2007 alone, the CDC found that 19.2 percent of boys 
and 13.5 percent of girls age 10 to 17 were obese.\8\
---------------------------------------------------------------------------
    \8\ Child and Adolescent Health Measurement Initiative. 2007 
National Survey of Children's Health, Data Resource Center for Child 
and Adolescent Health Web site. Retrieved [12/10/09] from 
www.nschdata.org.
---------------------------------------------------------------------------
    According to the CDC, obesity prevalence was highest among Mexican-
American adolescent boys at 22.1 percent and American Indian/Alaska 
Native children at 21.2 percent, growing at a rate of about half a 
percentage point each year from 2003 to 2008. African-American boys had 
the next highest rate of obesity at 18.5 percent, followed by non-
Hispanic white boys at 17.3 percent.\9\ The most recent CDC data showed 
that for girls age 12 to 19 years of age, African-American girls had 
the highest prevalence of obesity at 27.7 percent, compared to that of 
Mexican-American girls at 19.9 percent and non-Hispanic white girls at 
14.5 percent.\10\
---------------------------------------------------------------------------
    \9\ Center for Disease Control and Prevention, National Health and 
Nutrition Examination Survey, 2003-6.
    \10\ Center for Disease Control and Prevention, National Health and 
Nutrition Examination Survey, 2003-6.
---------------------------------------------------------------------------
    Overall, poverty has been associated with greater obesity 
prevalence among adolescents; however, subgroups have differed. In one 
report, for example, obesity prevalence among younger African-American 
male adolescents was higher in middle- and high-income families than in 
low-income families, but prevalence among older black male adolescents 
was higher in low-income families.\11\ Among white teen girls, the 
prevalence of overweight and obesity decreases with increasing 
socioeconomic status. Among African-American teen girls, however, the 
prevalence of overweight remains the same or increases with increasing 
socioeconomic status.\12\ A CDC study showed that one of seven low-
income, preschool-aged children is obese, but the obesity epidemic 
among this population may be stabilizing. The prevalence of obesity in 
low-income 2- to 4-year-olds increased from 12.4 percent in 1998 to 
14.5 percent in 2003 but rose to only 14.6 percent in 2008.\13\
---------------------------------------------------------------------------
    \11\ Miech RA, Kumanyika SK, Stettler N, Link BG, Phelan JC, Thang 
VW. Trends in the association of poverty with overweight among U.S. 
adolescents, 1971-2004. JAMA 2006;295:2385-2393.
    \12\ Gordon-Larsen P. The relationship of ethnicity, socioeconomic 
factors, and overweight in U.S. adolescents. Obesity Research, 2003; 
11:121-129.
    \13\ Obesity Prevalence Among Low-Income, Preschool-Aged Children--
United States, 1998-2008, MMWR.
---------------------------------------------------------------------------
    Rates of childhood overweight and obesity also vary considerably 
based on geography. In 2008, statewide childhood rates of overweight 
and obesity ranged from a low of 23.1 percent in Utah and Minnesota to 
a high of 44.4 percent in Mississippi.\14\
---------------------------------------------------------------------------
    \14\ Trust for America's Health. F as in Fat 2009. July 2009. 
Online at http://healthy
americans.org/reports/obesity2009/, accessed 12/11/09.
---------------------------------------------------------------------------
             childhood obesity: the clinician's perspective
    In the past 3 months, patients at my clinic have included:

    <bullet> A 2-year-old Hispanic girl who weighed 45 pounds, whose 
mother wanted ``someone to talk to'' about her child's weight.
    <bullet> A third grade boy who told me he never goes outside. Not 
that he does not play outside--he does not even go outside.
    <bullet> A 15-year-old girl with suicidal thoughts who feels she 
``doesn't fit in with anyone else.''
    <bullet> A 9-year-old weighing 290 pounds with obesity-related back 
pain and liver disease.

    How do we help these children?
    First and foremost, we must recognize that there is no single 
factor responsible for obesity. Obesity is the end result of a complex 
interplay of different issues. Any solution must therefore be equally 
complex and multi-faceted.
    Davidson and Birch described the ``socio-ecologic'' model of 
obesity, which illustrates the many factors that impact weight. The 
concentric circles of this model show the issues related to the 
individual, family, community, and larger social structure that either 
promote or inhibit good nutrition, physical activity, and overall 
health. Any meaningful attempt to stem the rising tide of obesity must 
address many of these issues simultaneously and over a prolonged period 
of time in order to produce sustainable change.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The good news is that we can help children with overweight and 
obesity, and we are learning more every day about the most effective 
ways of doing so. In addition to those troubling cases noted above, 
this year my clinic has also seen success stories, like the 3-year-old 
whose BMI went from the 95th to the 85th percentile after four visits, 
and the 16-year-old boy with hypertension who had gained weight rapidly 
his whole life but was able to lower his BMI from 33 to 30
    Pediatricians are also working hard on obesity prevention. We are 
helping families identify high-risk environments and lifestyle 
behaviors before their child's BMI reaches an unhealthy level.
        american academy of pediatrics initiatives and resources
    The AAP provides a range of resources to pediatricians to help them 
care for their patients. We have also undertaken a range of projects to 
explore both clinical and community-based models for reducing childhood 
obesity.
    Centralized Resources. The AAP maintains all of its tools and 
resources for families, clinicians and policymakers on a single Web 
site, http://www.aap.org. This provides health care practitioners with 
a unified, centralized source of information about childhood obesity. 
The AAP recently launched a new Web site for parents, 
HealthyChildren.org, which contains extensive information for families 
on promoting health weight and good health (http://
www.healthychildren.org).
    Anticipatory Guidance. The AAP is proud to lead the development of 
Bright Futures: Guidelines for Health Supervision of Infants, Children, 
and Adolescents. Bright Futures guidelines direct pediatricians and 
other health care providers to discuss issues related to nutrition and 
physical activity at every well-child visit from birth through 
adolescence. Of the 10 key themes in Bright Futures, three are: 
Promoting Healthy Weight, Promoting Healthy Nutrition, and Promoting 
Physical Activity.
    Clinical Guidance. The AAP was intimately involved in the 
development of the Expert Committee Recommendations Regarding the 
Prevention, Assessment, and Treatment of Child and Adolescent 
Overweight and Obesity, which provide comprehensive guidelines on the 
subject. We also provide our membership and other health care providers 
with policy statements that guide the prevention and treatment of 
obesity and its co-morbidities.
    Clinical Tools. The AAP provides a wide range of clinical tools to 
pediatricians and other health care providers, such as an online BMI 
calculator, parent handouts and brochures, growth charts, weight 
management protocols, model forms to document visits and coordinate 
care with other providers, coding resources so pediatricians can get 
reimbursed appropriately for services, quality improvement initiatives 
on obesity for practices, and much more.
    Books and Publications. The AAP publishes a number of books and 
handbooks for both physicians on preventing and treating obesity. We 
highlight obesity issues regularly in our publications, our scholarly 
journal Pediatrics, and other publications. The AAP also publishes 
materials for parents, including books, brochures, and handouts that 
promote healthy, active living.
    Continuing Medical Education. The AAP offers continuing medical 
education for pediatricians and other health care providers on 
childhood obesity through online learning programs like Pedialink, our 
chapters meetings and publications, national conferences, and other 
venues.
    Partnerships and Grants. The AAP is engaged in an array of 
partnerships to promote various aspects of healthy, active living. They 
include:

    <bullet> Let's Move: The AAP was a key partner with First Lady 
Michelle Obama in her recently-announced ``Let's Move!'' initiative. As 
part of that effort, the AAP pledged to continue urging pediatricians 
to calculate and plot BMI at every well-child visit, and we provided 
free downloadable ``prescriptions'' for healthy, active living that 
pediatricians can give to all patients.
    <bullet> Alliance Healthcare Initiative: The AAP was a lead 
participant in the Alliance Healthcare Initiative, a collaborative 
effort with national medical associations, leading insurers and 
employers to offer comprehensive health benefits to children and 
families for the prevention, assessment, and treatment of childhood 
obesity. Partners include the Alliance for a Healthier Generation 
(Clinton Foundation and American Heart Association), American Dietetic 
Association, Aetna, BlueCross/BlueShield North Carolina, BlueCross/
BlueShield Massachusetts, Wellpoint Inc, and PepsiCo.
    <bullet> Healthy Active Living Grants: The MetLife Foundation 
supported five chapter grants and five community pediatric training 
(CPTI) residency grants for 2010. The chapter grants are focused on 
improving healthy beverage consumption in the community with an 
emphasis on age birth to age 5. The CPTI grants are focused on obesity 
prevention in the community.
    <bullet> Be Our Voice: Mobilizing healthcare professionals as 
community leaders in the fight against childhood obesity, also known as 
the Be Our Voice Project, is a program of the National Initiative for 
Children's Healthcare Quality (NICHQ), in cooperation with the AAP, the 
California Medical Association Foundation and the Center to Prevent 
Childhood Obesity and is sponsored through the generous funding of the 
Robert Wood Johnson Foundation. This initiative aims to train 
healthcare professionals to become change agents within their 
communities to help reverse the trend of the childhood obesity 
epidemic.
    <bullet> Mentorship and Technical Assistance Program (MTAP): In 
2008, funding from the Robert Wood Johnson Foundation supported five 
Mentorship and Technical Assistance Program (MTAP) grants focused on 
obesity in underserved populations. The MTAP grants provide up to 
$2,000 in funding to assist AAP Council on Community Pediatrics' 
members to improve their community pediatrics skills and/or develop 
innovative programs within their community.
    <bullet> Healthy Grandfamilies: In 2008, the Academy, in 
partnership with the Strang Cancer Prevention Center and the Illinois, 
Texas, and New York 3 Chapters of the AAP, conducted a program to help 
teach custodial grandparents in underserved communities the importance 
of healthy, active living. The program took place in Chicago, Houston, 
Dallas, and Harlem. Each program consisted of six workshops facilitated 
by pediatricians.

    In addition, the AAP has endorsed and/or participates in a number 
of national campaigns on healthy weight. They include:

    <bullet> Action for Healthy Kids, a national-State initiative 
dedicated to improving the health and educational performance of 
children through better nutrition and physical activity in schools.
    <bullet> CDC's VERB Campaign, which encouraged positive physical 
activity among tweens, youth age 9-13.
    <bullet> Exercise is Medicine, a campaign led by the American 
College of Sports Medicine and designed to make physical activity to be 
considered by all healthcare providers a vital sign in every patient 
visit.
    <bullet> NICHQ's Childhood Obesity Action Network, a Web-based 
national network aimed at rapidly sharing knowledge, successful 
practices and innovation.
    <bullet> President's Council on Physical Fitness and Sports 
(PCPFS), which serves as a catalyst to promote, encourage, and motivate 
Americans of all ages to become physically active and participate in 
sports.
    <bullet> Shaping America's Youth, an effort to provide the latest 
and most comprehensive information on programs and community efforts 
across the United States directed at increasing physical activity and 
improving nutrition in our Nation's youth.
    <bullet> We Can! Led by the National Institutes of Health, ``Ways 
to Enhance Children's Activity and Nutrition'' is a national program 
designed for families and communities to help children maintain a 
healthy weight.

    Advocacy Efforts. The AAP is engaged in a multitude of efforts to 
effect policy changes at the Federal, State, and local levels that will 
help reverse the tide of childhood obesity. We provide extensive 
resources to our chapters about ongoing initiatives in their States 
\15\ as well as training and tools for advocacy. Our Washington, DC 
office is a resource for Federal policymakers on recommended changes to 
policies that impact children and their health. On March 8, the AAP 
roll out a major policy resource on our obesity Web site for 
pediatricians seeking to advocate for policy change around childhood 
obesity issues at the Federal, State, and local levels.
---------------------------------------------------------------------------
    \15\ For information on efforts in many States, see http://
www.aap.org/obesity/community_whatsHappening.html?technology=2.
---------------------------------------------------------------------------
    In conclusion, the American Academy of Pediatrics commends you, Mr. 
Chairman, for convening this hearing on the important and timely issue 
of childhood obesity. The Academy is grateful for the committee's 
commitment to child health, and we hope you will consider us a partner 
and supporter in your efforts to reduce the health and economic burdens 
obesity inflicts upon our children and our Nation. I appreciate this 
opportunity to testify, and I look forward to your questions.

    The Chairman. Dr. Hassink, thank you very much for your 
statement and for being here and for your leadership.
    Now we turn to Dr. Joe Thompson.

  STATEMENT OF JOE THOMPSON, M.D., MPH, DIRECTOR, ROBERT WOOD 
JOHNSON FOUNDATION CENTER TO PREVENT CHILDHOOD OBESITY, LITTLE 
                            ROCK, AR

    Dr. Thompson. Thank you, Senator Harkin, Senator Enzi, 
members of the committee.
    With your acquiescence, I'll submit my written testimony, 
but build upon the conversation and dialogue that's already 
gone on this morning.
    I want to commend, also, this first of what we hope are a 
series of hearings, testimonies here that--because this is a 
true epidemic, it is impacting the health of our children. We 
will have children today diagnosed with what used to be called 
adult on-set diabetes, now we've had to change the name to be 
type 2 diabetes. It is affecting the military preparedness, 
because we don't have recruits that are physically fit to go 
into boot camp. It is costing employers, on the healthcare 
side, through their health insurance costs, as we've heard 
earlier today. And it really, truly threatens the productivity 
and the future of our Nation if we don't address this and 
reverse the epidemic of childhood obesity.
    The cause is relatively simple. The solutions are going to 
be multiple. But, the cause, basically, is an imbalance in the 
calories that our children take in each and every day. Our 
bodies are designed that we take calories in and, if we don't 
burn them off, we're going to store them as weight. Over the 
course of the last three decades, our children have been 
exposed to an environment that causes them to be out of 
balance, to take more calories in than they burn off each day. 
We've discussed some today about what those causes are--the 
loss of physical activity in schools; the changes in the diet 
patterns; the loss of families sitting down to nutritious meals 
in the evening; the pervasiveness of TV--we used to have 
cartoons only on Saturday morning, now we have them on multiple 
channels, 7 days a week, 24 hours a day; the preponderance of 
food advertising that's on those channels 24 hours a day; the 
number of televisions that our families have in their homes; 
the safety of parks where kids cannot now, either because of 
perception or reality, get out and play each and every day. 
Each of these things has contributed to an imbalance. And the 
researchers suggest it may be as little as 200 calories a day, 
but it's 200 calories each and every day through a child's life 
that has caused this epidemic of childhood obesity to where 
now, in my State, two out of five, or 40 percent, of the 
children are either obese or overweight. And in some 
populations--our African-American population, our Hispanic 
population, our lower income population--it's even more than 
that.
    So, this imbalance is real and the solutions are multiple.
    I've had the opportunity, we're in our seventh year in the 
State of Arkansas. I now serve as the surgeon general under 
Democratic Governor Mike Beebe, and I will tell you, this is a 
nonpartisan issue. It affects every family, every family is 
susceptible, and it crosses all party lines, all socioeconomic 
levels. We have tried to change everything we can think of in 
the school, in the cafeteria, educations, taken advantage of 
new programs, like the Fresh Fruit and Vegetable Snack Program, 
Senator. We have tried to add physical activity back in. We 
have tried to build and change the communities within which we 
live. One of my local legislators said, ``Well, you know you're 
making a difference when you start pouring concrete.'' We have 
built the world's longest pedestrian bridge over the Arkansas 
River to try to make a bike and walking trail available. And 
we've measured and reported to parents, each and every year, 
their child's BMI. And I'm here to confidently say we have 
halted the epidemic of childhood obesity in our State. Not 
reversed it, yet. We need help from the Federal Government and 
more local investment to reverse it, but we've halted it.
    And that's where, 4 years ago, when the Robert Wood Johnson 
Foundation committed half a billion dollars to reverse the 
epidemic by 2015, and 2 years ago, when they asked me to direct 
the Center to Prevent Childhood Obesity, we actually have 
programs across the Nation, in each and every one of your 
States, making a difference, so that we're actually supporting 
innovation at the local level. We've got examples, that I 
submitted in the written testimony, but examples include the 
Fresh Fruit Financing Initiative, that the Surgeon General 
mentioned earlier, where they've reinvested to get grocery 
stores back into the ``food deserts'' that Senator Merkley was 
mentioning.
    Making flea markets in Baldwin Park, CA, add food as a item 
being sold, as a farmer's market, and then, in addition, making 
electronic debit cards for Food Stamp recipients to be able to 
be used, so that we actually help individuals that are on the 
Supplemental Nutrition Assistance Program be able to access 
fresh fruits and vegetables.
    In Columbia, MO, they're looking at how they look at their 
community design by using GIS mapping to say, ``Where are 
people, and where are stores, and how could we get people to 
the stores without having to drive?'' So they're looking at 
redesign of that community.
    And finally, other communities across the Nation are 
actually trying to come up with innovative ways to reestablish 
the calorie balance for, not only their children, but the 
community at-large.
    This is an important issue. It is a true epidemic. We have 
to have local leaders. We have to have the school leaders. We 
have to have local community leaders, State leaders, 
legislative, and we're excited about the Administration's 
leadership. There are true opportunities here to move forward 
and to reverse this epidemic.
    I might just close by saying, we didn't intentionally get 
here, and nobody intentionally brought us here. This is not 
something that we can say, ``Here is the entity or the 
institution or the industry that caused this.'' But, we're 
going to have to intentionally get ourselves out of here if 
we're going to have a safe, productive, healthy future. I've 
never met a parent that wanted to have a healthy, uneducated 
kid or an educated, unhealthy child. They want a healthy, 
educated child coming out of the pipeline, and we have to do 
better to provide them that opportunity.
    Thank you very much.
    [The prepared statement of Dr. Thompson follows:]
          Prepared Statement of Joseph W. Thompson, M.D., MPH
    Childhood obesity is a true epidemic; obesity rates have soared in 
the United States over the past three decades. Today more than 23 
million children and teenagers are overweight or obese--nearly one in 
three young people. And obesity is becoming a problem at an earlier 
age, with 24.4 percent of children ages 2 to 5 already obese or 
overweight.
    The childhood obesity epidemic cuts across all categories of race, 
ethnicity, family income and locale, but some populations are more 
likely to be obese or live in unhealthy environments than others. 
Lower-income individuals, Blacks, Latinos, American Indians, and those 
living in the southern part of the United States are among those 
affected more than their peers.
    The changes in our environment and our eating patterns have 
impacted the weight and health of our children.

    <bullet> In some communities, parents aren't able to purchase 
healthy foods because they don't have access to a local supermarket. 
Communities of color have access to fewer supermarkets than do 
predominantly white communities.
    <bullet> These same communities are significantly less likely to 
have places where children can be physically active, such as parks, 
green spaces, and bike paths and lanes. This makes it difficult for 
children and adolescents to meet experts' recommendation that they have 
60 or more minutes of physical activity daily.
    <bullet> On top of that, in 2006, only 2.1 percent of high schools, 
7.9 percent of middle schools and 3.8 percent of elementary schools 
provided daily physical education or its equivalent to all students for 
the full school year.

    Our children's physical and social environments affect their 
health. How kids live and what they have access to directly impacts 
their behavior and health. When our communities provide affordable 
healthy foods and safe places to play and exercise, our children are 
healthier.

    <bullet> In Pennsylvania, the Fresh Food Financing Initiative 
(FFFI) serves the financing needs of supermarket operators to operate 
in underserved communities. The FFFI funded 52 stores in underserved, 
lower-income communities, and helped to create 3,333 local jobs.
    <bullet> A flea market may not be the first place people think of 
when they want to buy fresh fruits and vegetables. But after doing a 
community food assessment, Fresno Metro Ministry in California learned 
that many people in its community shopped for produce at the Selma Flea 
Market. So they worked with local, State, and Federal Government 
partners to allow families to use their food stamps to buy nutritious 
food at a place in their community where they feel welcome and 
comfortable.
    <bullet> In Columbia, MO, a group of grassroots advocates, public 
health officials, public schools, academics and leaders from government 
and the faith-based community pushed new street and sidewalk design and 
school wellness policies and are now using multilayered GIS mapping to 
combine population and community data to better analyze where grocery 
stores, walking paths and bus routes are located--this work is guiding 
the community's future development to improve health.
    <bullet> Baldwin Park, CA knows that working only with health 
advocates is not the answer. So this community has created a ``Smart 
Streets Task force' which is hosting workshops to discuss walkability 
and mobility to downtown and increased opportunities for exercise and 
healthy food access. Their target audience is broad: parents, 
neighborhood watch leaders, childcare providers and county 
commissioners in the areas of housing, planning, and parks and 
recreation.

    These are the stories of communities and government coming together 
as a team to change their neighborhoods so children and families have 
access to fresh fruits and vegetables and safe places to play, but 
preventing childhood obesity requires change on many levels, and the 
Federal Government cannot do this alone. It will require the help of 
many in both the public and private sectors.

    <bullet> School officials need to make quality physical education 
and active recess a regular part of the school day, and ensure that the 
foods and drinks they're providing in cafeterias and vending machines 
are healthy and nutritious. Junk food doesn't belong in our schools.
    <bullet> Government leaders need to consider carefully how their 
decisions affect children's activity levels and eating habits. That 
means rethinking policies they might not associate with obesity 
prevention--like zoning, which helps determine which businesses move 
in, and school location and design, which affects whether students can 
walk or bike to school.
    <bullet> The food and beverage industries should look closely at 
the nutritional content of the products they offer, provide nutritional 
information that's easy for parents and youths to find and understand, 
and refrain from marketing unhealthy products to children.
    <bullet> Parents need to lead by example and create healthy 
environments at home. And they need help--they need to make it clear to 
community leaders and elected officials that having access to 
affordable healthy foods and safe places for their kids to play is 
important to them, so these leaders are motivated to act.

    It is clear that in our Nation we have an environment that fosters 
rather than prevents childhood obesity. We did not intentionally get 
here, but we must intentionally find our way forward. The environments 
in which people live, learn work and play affect their health and the 
health of their communities. These environments can be changed--as 
these communities are demonstrating--and we can support our children in 
living healthy and active lives.
                                 ______
                                 
    Senator Harkin, Senator Enzi, members of the committee, thank you 
for inviting me to testify on one of the most important health threats 
facing our children today--obesity.
    I am Dr. Joe Thompson, Director of the Robert Wood Johnson 
Foundation Center to Prevent Childhood Obesity, Surgeon General of the 
State of Arkansas and a pediatrician. The center is a cornerstone of 
RWJF's $500 million commitment to reverse the epidemic of childhood 
obesity by 2015 by changing community environments and public policies 
to help children be more active and eat healthy foods. Both the center 
and the Foundation place special emphasis on reaching children who are 
either at greatest risk for obesity and related health problems or have 
limited access to healthy foods and safe places to play: Black, Latino, 
American Indian, Asian/Pacific Islander children, as well as children 
living in lower-income communities. Through policy analysis, leadership 
development, and communications with a broad network of advocates, the 
center is working to create healthier communities, prevent obesity, and 
improve the lives of our Nation's children and families.
    This is a true epidemic; one that every family is susceptible to. 
Simply put, children are consuming more calories than they burn. To 
restore ``energy balance'' in our children's lives, we need to ensure 
that the places where they live, learn and play support healthy eating 
and physical activity. We need to make healthy choices the easy choice 
for children and families.
    Within my home State, we are in our seventh year of trying to 
reverse this epidemic through policy change, increased awareness, and 
support for parents and families. Many families come with stories of 
success in addressing a risk they initially didn't recognize but 
overcame. Sarah was an elementary school student about to go to junior 
high when we sent out our first health reports in 2004. Her mother had 
recognized her weight because at dress-up parties in elementary school 
she didn't fit in. As she gained weight, she showed signs of depression 
and social withdrawal that led to more eating. With the health report, 
the family started making changes--not eating in front of the TV, 
limits on soda and increased family levels of activity. Over the next 2 
years, Sarah regained her health, normalized her weight, and became a 
social butterfly. This success story is being repeated and reinforced 
by the changes we are making in schools and communities. But it isn't 
enough.
    Obesity rates have soared in the United States over the past three 
decades. Today more than 23 million children and teenagers are 
overweight or obese--nearly one in three young people.\1\ And obesity 
is becoming a problem at an earlier age, with 24.4 percent of children 
ages 2 to 5 already obese or overweight.\2\
---------------------------------------------------------------------------
    \1\ Ogden CL, Carroll MD, Curtin LR, Lamb MM and Flegal KM. 
``Prevalence of High Body Mass Index in U.S. Children and Adolescents, 
2007-2008.'' Journal of the American Medical Association, 303(3): 242-
249, January 2010.
    \2\ Ibid.
---------------------------------------------------------------------------
    The childhood obesity epidemic cuts across all categories of race, 
ethnicity, family income and locale, but some populations are more 
likely to be obese or live in unhealthy environments than others. 
Lower-income individuals, Blacks, Latinos, American Indians, and those 
living in the southern part of the United States are among those 
affected more than their peers.
    Obesity threatens the health of our young people--and their future 
potential. Obese children miss more days of school than their healthy-
weight peers.\3\ They're at increased risk for a variety of serious 
health conditions, including asthma, heart disease and type 2 
diabetes.\4\ Some experts warn that if obesity rates continue to climb, 
today's young people may be the first generation in American history to 
live sicker and die younger than their parents' generation.\5\
---------------------------------------------------------------------------
    \3\ Geier, A, Foster G, Womble L, et al. ``The Relationship Between 
Relative Weight and School Attendance Among Elementary 
Schoolchildren.'' Obesity, 15(8): 2157-2161, August 2007.
    \4\ Overweight and Obesity, Health Consequences. Centers for 
Disease Control and Prevention, 2009. www.cdc.gov/obesity/causes/
health.html (accessed June 2009). (No authors given.)
    \5\ Olshansky S, Passaro D, Hershow R, et al. ``A Potential Decline 
in Life Expectancy in the United States in the 21st Century,'' New 
England Journal of Medicine, 352(11): 1138-1145, March 2005.
---------------------------------------------------------------------------
    Obesity is affecting our military readiness, crippling State and 
national budgets, and putting U.S. businesses at a competitive 
disadvantage by reducing worker productivity and increasing health care 
costs.\6\
---------------------------------------------------------------------------
    \6\ Christeson W, Taggart AD, Messner-Zidell S. Ready, Willing, and 
Unable to Serve. Washington, DC: Mission: Readiness, 2009.
---------------------------------------------------------------------------
    Arkansas has examined the cost of obesity among our own State 
employees--and it's something every employer should consider. The 
yearly claims cost associated with obesity now exceeds that of tobacco, 
with obese employees costing over 50 percent more than their 
counterparts who don't smoke, have a normal BMI and do some 
exercise.\7\
---------------------------------------------------------------------------
    \7\ Unpublished data, Arkansas Center for Health Improvement.
---------------------------------------------------------------------------
    These costs start early in life. We've looked at the cost impact in 
our Medicaid and SCHIP program and see higher rates of illness, more 
doctors' visits, and increases in costs as early as 10 to 14 years of 
age.\8\ For the Nation, childhood obesity is associated with annual 
prescription drug, emergency room, and outpatient costs of $14.1 
billion, plus inpatient costs of $237.6 million.\9\
---------------------------------------------------------------------------
    \8\ Card-Higginson P, Thompson JW, Shaw JL, Lein S. Cost and health 
impact of childhood obesity among Medicaid/SCHIP enrollees. 2008 
AcademyHealth Annual Research Meeting, Washington, DC, June 9, 2008.
    \9\ Cawley J. ``The Economics of Childhood Obesity.'' Health 
Affairs, Volt. 29 (No. 3): 364--371, 2010.
---------------------------------------------------------------------------
    How did we get to this point?
    The changes in our environment and our eating patterns have 
impacted the weight and health of our children.
    In some communities, parents aren't able to purchase healthy foods 
because they don't have access to a local supermarket. Communities of 
color have access to fewer supermarkets than do predominantly white 
communities.\10\
---------------------------------------------------------------------------
    \10\ Moore L and Diez Roux A. ``Associations of Neighborhood 
Characteristics with the Location and Type of Food Stores.'' American 
Journal of Public Health, 96(2): 325-331, February 2006.
---------------------------------------------------------------------------
    And these same communities are significantly less likely to have 
places where children can be physically active, such as parks, green 
spaces, and bike paths and lanes.\11\ This makes it difficult to meet 
experts' recommendation that children and adolescents have 60 or more 
minutes of physical activity daily.\12\
---------------------------------------------------------------------------
    \11\ Powell L, Slater S and Chaloupka F. ``The Relationship Between 
Community Physical Activity Settings and Race, Ethnicity and 
Socioeconomic Status.'' Evidence-Based Preventive Medicine, 1(2): 135-
144, 2004.
    \12\ 2008 Physical Activity Guidelines for Americans. U.S. 
Department of Health and Human Services, 2008. http://health.gov/
paguidelines/pdf/paguide.pdf (accessed May 2009).
---------------------------------------------------------------------------
    On top of that, in 2006, only 2.1 percent of high schools, 7.9 
percent of middle schools and 3.8 percent of elementary schools 
provided daily physical education or its equivalent to all students for 
the full school year.\13\
---------------------------------------------------------------------------
    \13\ SHPPS 2006: Overview. Department of Health and Human Services: 
Centers for Disease Control and Prevention, 2007. www.cdc.gov/
HealthyYouth/shpps/2006/factsheets/pdf/FS_
Overview_SHPPS2006.pdf (accessed May 2009).
---------------------------------------------------------------------------
    It is clear that we have created an environment that fosters rather 
than prevents childhood obesity. We did not intentionally get here, but 
we must intentionally find our way forward. The environments in which 
people live, learn work and play affect their health and the health of 
their communities. For example, when children have access to safe 
parks, they are more active. When local stores sell affordable healthy 
foods, families eat better. But when communities are dominated by fast 
food and lack places for children to play, it changes how those 
children live--for the worse.
    You can't say to a parent, ``your child should exercise more'' if 
there's no PE in school and the only nearby park is so dangerous and 
run-down that no one dares visit. You can't say to a family ``eat more 
fruits and vegetables'' when the only stores in the neighborhood sell 
six kinds of chips, and 12 kinds of soda, but not a single piece of 
fresh produce.
    Research tells us that our children's physical and social 
environments affect their health. How kids live and what they have 
access to directly impacts their behavior and health. When our 
communities provide affordable healthy foods and safe places to play 
and exercise, our children are healthier.
    We can learn from the communities throughout the Nation. From the 
many communities being funded by RWJF, to the CDC's and YMCA's ACHIEVE 
Communities, to the new communities being funded through the stimulus 
bill and countless others, I am hopeful we will create models to enact 
real change nationwide.
    The good news is change is already happening on the ground today.
    Trends show that, even in a tough economic climate, States are more 
and more focused on enacting measure to support and promote healthy 
eating and physical activity. States are aware of the key role they can 
play and are keeping the momentum up.
    The annual F as in Fat report, released by the Trust for America's 
Health and RWJF, examines childhood obesity prevention efforts across 
the Nation: Recent findings demonstrate some progress toward creating 
healthier environments:

    <bullet> In 2004, six States had nutritional standards for 
competitive foods that are sold a la carte in school cafeterias, 
vending machines, or school stores. Today, it's 27.
    <bullet> In 2004, only four States required school screenings for 
body mass index or some other weight-related assessment. Today it's 20.
    <bullet> In 2004, four States had nutritional standards for school 
lunches and breakfasts that were stricter than the current USDA 
standards. Today, it's 19.\14\
---------------------------------------------------------------------------
    \14\ F as in Fat: How Obesity Policies are Failing in America, 
2009, pg. 5. http://healthyamericans.org/reports/obesity2009/
Obesity2009Report.pdf (accessed February 2010).

    I have seen this change first hand.
    In my home State of Arkansas, Act 1220 of 2003 required changes and 
enabled recommendations to be adopted by the Arkansas Board of 
Education strengthening nutrition and physical activity policies for 
all schools. Confidential body mass index (BMI) reports required by 
this act have helped parents understand the risks of obesity to their 
children and increased knowledge about their children's health. Through 
these changes and many other community activities we have seen 
improvements in the food offerings for our students, improvements in 
their purchasing patterns in vending machines, and increased levels of 
activity. Most promising, though, is that through the BMI assessments 
we have observed a halt in the epidemic--we are not increasing the 
number of overweight and obese children. But we must do more to reverse 
the epidemic and eliminate the risk to our children.
    We are extending our work from the schools out into the communities 
within which our families live and grow. A statewide coalition is 
supporting communities to improve access to healthy foods, address the 
built environment, engage early childcare and after-school programs in 
healthy eating and physical activity, encourage employers through 
worksite wellness, and partner with health care providers. It has now 
established a Growing Healthy Communities program to support selected 
communities working to enact broad-scale environmental changes to 
enhance healthy eating and active living opportunities for their 
residents.
    In Pennsylvania, the Fresh Food Financing Initiative (FFFI) was 
started in response to research that showed high rates of diet-related 
disease in underserved communities with poor access to grocery stores 
and farmers' markets. The initiative serves the financing needs of 
supermarket operators who plan to operate in underserved communities 
where infrastructure costs and credit needs cannot be filled solely by 
conventional financial institutions. The State of Pennsylvania 
appropriated $30 million over 3 years to the program, and The 
Reinvestment Fund leveraged the investment to create a $120 million 
initiative. As of 2008, the FFFI funded 52 stores in underserved, 
lower-income communities, and helped to create 3,333 local jobs. Even 
in the recent blizzard that temporarily shut down much of Philadelphia, 
the new Fresh Grocer on North Broad Street was able to stay open 
because so many of its employees live in the immediate 
neighborhood.\15\
---------------------------------------------------------------------------
    \15\ The Food Trust and Pennsylvania's Legislation to Finance Fresh 
Food Markets in Underserved Communities, http://
www.reversechildhoodobesity.org/sites/default/files/files-wfm/files/
The%20Food%20Trust%20and%20Pennsylvania%20FFFI.pdf (accessed February, 
2010).
---------------------------------------------------------------------------
    In Dallas, TX, traffic volume and congestion, coupled with a lack 
of sidewalks along streets, made pedestrian travel and recreation 
inefficient and dangerous. In 2002, a group of citizens and 
organizations joined together to create the Friends of the Trinity 
Strand Trail. The goal was to create a city-wide plan to connect all of 
the trails in the Dallas trail system to allow people to travel from 
one side of the city to the other without intersecting traffic. They 
raised over $12 million in public and private funds, and tapped into 
some existing natural resources to tie commercial, residential, and 
recreational areas together with easy access to public 
transportation.\16\
---------------------------------------------------------------------------
    \16\ Texas Bringing Healthy Back: Growing Community, pg. 2, http://
www.reversechildhood
obesity.org/webfm_send/114 (accessed February, 2010).
---------------------------------------------------------------------------
    And change isn't just happening to physical environments, it is 
also happening in the areas of healthy foods. A flea market may not be 
the first place people think of when they want to buy fresh fruits and 
vegetables. But after doing a community food assessment, Fresno Metro 
Ministry in California learned that many people in its community 
shopped for produce at the Selma Flea Market. Unfortunately, when 
California switched to Electronic Benefits Transfer (EBT) cards for 
access to Supplemental Nutrition Assistance Program (SNAP) and SNAP 
benefits, individuals and families were no longer able to use food 
stamps at the market. To process the EBT cards, merchants needed high-
tech machinery and a phone line. They had neither.
    Fresno Metro Ministry worked with local, State and Federal agencies 
to change that. Now, market staff use a single wireless electronic 
device to swipe the EBT card and deduct an amount from the 
participant's food stamp account in exchange for tokens that they can 
then use to shop at eligible food vendors at the flea market. Families 
are now able to use their food stamps to buy nutritious food at a place 
in their community where they feel welcome and comfortable. The EBT 
flea market program has expanded to two additional flea markets in 
Fresno County, and a third may soon be added.\17\
---------------------------------------------------------------------------
    \17\ Using Food Stamps to Buy Fresh Produce at a Local Flea Market, 
http://www.reversechildhoodobesity.org/sites/default/files/files-wfm/
files/Using%20Food%20Stamps%20at%20Flea%20Mkts.pdf (accessed February, 
2010).
---------------------------------------------------------------------------
    I'd also like to share some early examples of success from RWJF's 
Healthy Kids, Healthy Communities program--one of the Foundation's 
largest and most ambitious community-action initiatives ever. It's 
working to create communities where children and their families have 
access to affordable healthy foods and safe places to play and 
exercise.
    In Columbia, MO, a group of grassroots advocates, public health 
officials, public schools, academics and leaders from government and 
the faith-based community pushed new street and sidewalk design and 
school wellness policies and are now using multilayered GIS mapping to 
combine population and community data to better analyze where grocery 
stores, walking paths and bus routes are located to help guide future 
development.\18\
---------------------------------------------------------------------------
    \18\ Healthy Kids, Healthy Communities: Supporting Community Action 
to Prevent Childhood Obesity, Columbia, MO, http://
www.healthykidshealthycommunities.org/communities/columbia-mo (accessed 
February 2010).
---------------------------------------------------------------------------
    Baldwin Park, California knows that working only with health 
advocates is not the answer. So this HKHC community has created a 
``Smart Streets Task force' which is hosting workshops to discuss 
walkability and mobility to downtown and increased opportunities for 
exercise and healthy food access. Their target audience is broad: 
parents, neighborhood watch leaders, childcare providers and county 
commissioners in the areas of housing, planning and parks and 
recreation.\19\
---------------------------------------------------------------------------
    \19\ Healthy Kids, Healthy Communities: Supporting Community Action 
to Prevent Childhood Obesity, Baldwin Park, CA, http://
www.healthykidshealthycommunities.org/communities/baldwin-park-ca 
(accessed February 2010).
---------------------------------------------------------------------------
    These are the stories of communities and government coming together 
as a team to change their neighborhoods so children and families have 
access to fresh fruits and vegetables and safe places to play.
    Never have I seen such momentum to reverse this epidemic. I am 
pleased that the First Lady has made this her signature issue and that 
Federal agencies are already working together to develop a plan to 
solve the problem of obesity among our Nation's children within a 
generation. Congress is poised to reauthorize several key laws this 
year and in the coming years, and States and local governments are 
primed and ready to make change.
    But because preventing childhood obesity requires change on many 
levels, the Federal Government cannot do this alone. It will require 
the help of many in both the public and private sectors.
    Everyone has a role to play in helping to reverse the childhood 
obesity epidemic.

    <bullet> School officials need to make quality physical education 
and active recess a regular part of the school day, and ensure that the 
foods and drinks they're providing in cafeterias and vending machines 
are healthy and nutritious. Junk food doesn't belong in our schools.
    <bullet> Government leaders need to consider carefully how their 
decisions affect children's activity levels and eating habits. That 
means rethinking policies they might not associate with obesity 
prevention--like zoning, which helps determine which businesses move 
in, and school location and design, which affects whether students can 
walk or bike to school.
    <bullet> The food and beverage industries should look closely at 
the nutritional content of the products they offer, provide nutritional 
information that's easy for parents and youths to find and understand, 
and refrain from marketing unhealthy products to children.
    <bullet> Parents need to lead by example and create healthy 
environments at home, so the television or computer isn't always on and 
healthy foods are available. And they need to make it clear to 
community leaders and elected officials that having access to 
affordable healthy foods and safe places for their kids to play is 
important to them, so these leaders are motivated to act.

    I look forward to working with all of you, the leaders in your 
States and in the towns where you come from to reverse this epidemic--
for the future of all our children and the future of this country.

    The Chairman. Well, Dr. Thompson, thank you very, very 
much.
    Now, we turn to Mr. Mendenhall. And, Mr. Mendenhall, you 
can establish your credentials right away with this committee 
by being forthright and saying that the toughest games you ever 
played were against the Hawkeyes at the University of Iowa.
    [Laughter.]
    The Big Ten--this is the Big Ten Offensive Player of the 
Year, so I'm well aware of Mr. Mendenhall, believe me.
    Welcome.
    Mr. Mendenhall. Well, I'm not going to lie to Congress to 
start off, so I'll just go into my speech.
    [Laughter.]

 STATEMENT OF RASHARD MENDENHALL, PITTSBURGH STEELERS RUNNING 
         BACK, NATIONAL FOOTBALL LEAGUE, PITTSBURGH, PA

    Mr. Mendenhall. Chairman Harkin, Ranking Member Enzi, and 
members of the committee. As stated, my name is Rashard 
Mendenhall. I recently completed my second season as a running 
back with the Pittsburgh Steelers. I appreciate the opportunity 
to testify today on an issue of great importance to the 
National Football League and to me personally, and that's the 
epidemic of childhood obesity.
    Launched in 2007, the NFL PLAY 60 campaign is a national 
youth health and fitness campaign, focused on combating 
childhood obesity by encouraging kids to be active for at least 
60 minutes a day. NFL PLAY 60 builds on the League's 
longstanding commitment to health and fitness. The NFL 
recognized that childhood obesity is a great public health 
crisis facing our Nation, and that the NFL has a unique ability 
in our culture to influence attitudes and behaviors, especially 
among young fans.
    NFL PLAY 60 promotes the importance of getting 60 minutes 
of physical activity per day. Kids are encouraged to find their 
own ways to get active--whether it's taking advantage of the 
local playground, playing four-square in the school yard, or 
establishing a walking club with friends.
    PLAY 60 presents organized sports, including youth 
football, as a way to get active, but certainly not the only 
way. The NFL doesn't necessarily ask kids to play football for 
60 minutes a day; we simply just ask kids to play for 60 
minutes.
    The inception of PLAY 60 in 2007, the NFL has committed 
more than $200 million in resources to youth health and fitness 
through media time for public service announcements, 
programming, and grants. Last year alone, more than 700 events 
were hosted by all 32 NFL teams who implement PLAY 60 in their 
local markets.
    I am committed to supporting the NFL's goal of combating 
childhood obesity. I see this epidemic around the country, in 
our schools, and in my community, as well. As a professional 
athlete, I feel I have a responsibility to be involved in this 
issue. This is why I am active in PLAY 60 through the Fuel Up 
to PLAY 60 program.
    In January, I attended an event for the Fuel Up to PLAY 60 
program at the Central Park East Middle School in Manhattan. 
Fuel Up is a joint effort between the NFL, the U.S. Department 
of Agriculture, and the National Dairy Council designed to 
create healthier environments in schools.
    Commissioner Roger Goodell, and Agriculture Secretary 
Vilsack, a Steelers fan, attended, as well. Fuel Up currently 
has a presence in 60,000 schools across the country. This 
program empowers youth to make their schools healthier and to 
develop lifelong healthy eating and physical activity habits.
    I had a chance to interact with more than 100 kids in the 
6th through 8th grades. Along with others in attendance, I 
spoke to them about healthy living and staying active. I 
described for kids what I did outside of football to maintain 
my health--this is walking, riding a bike, dancing, 
rollerskating and playing basketball. I also discussed all of 
the sports, in addition to football, that I participated in, 
and how important those were to me.
    I also had the opportunity to participate in the PLAY 60 
activity stations with the kids. We worked on football 
activities as well as a number of running, climbing and agility 
drills.
    The facts surrounding childhood obesity are startling. 
Nearly one in three children and teens in the U.S. are obese or 
overweight. That's more than 23 million youth. And in the last 
two decades, the rate of overweight children has doubled.
    We know that youth who are overweight or obese are more 
likely to have health risk factors associated to cardiovascular 
disease, such as high blood pressure, high cholesterol, and 
type 2 diabetes. In contrast, the benefits of good health 
translate to the classroom, where studies show that fit 
students are less likely to have disciplinary problems. Healthy 
students also perform better on standardized tests.
    It is possible that these facts, while troubling, should 
not come as such a surprise. Schools around the country find it 
challenging to offer physical education classes. Reports show 
that 50 percent of schools do not provide physical education in 
grades 1 through 5; 75 percent do not provide classes for 
grades 6 through 8. This trend makes it even more difficult for 
kids to learn the value of physical exercise.
    Recently, the NFL has been honored to participate with 
First Lady Michelle Obama on her Let's Move campaign. Just this 
fall, representatives of the NFL were also proud to join the 
President in filming a public service announcement supporting 
PLAY 60 and President Obama's community service initiative. It 
is exciting to see the White House and their commitment and 
passion to this issue.
    I am hopeful that the NFL's efforts complement the work of 
the White House and the Congress in addressing this public 
health crisis.
    Mr. Chairman, I commend you on holding this hearing and 
focusing congressional attention to this vital issue of public 
health, and I look forward to answering any questions.
    [The prepared statement of Mr. Mendenhall follows:]
                Prepared Statement of Rashard Mendenhall
    Chairman Harkin, Ranking Member Enzi, and members of the committee, 
my name is Rashard Mendenhall. I recently completed my second season as 
a running back with the Pittsburgh Steelers. I appreciate the 
opportunity to testify today on an issue of great importance to the 
National Football League, and to me personally--the epidemic of 
childhood obesity.
    Launched in 2007, the NFL PLAY 60 campaign is a national youth 
health and fitness campaign focused on combating childhood obesity by 
encouraging kids to be active for at least 60 minutes a day. Sixty 
minutes is the physical activity recommendation of the Centers for 
Disease Control and Prevention.
    NFL PLAY 60 was designed to build on the league's long-standing 
commitment to health and fitness. The NFL decided to focus on the issue 
of childhood obesity because it recognized not only the public health 
crisis facing our Nation, but also the NFL's unique place in our 
culture and its ability to influence attitudes and behaviors--
especially among young fans.
    NFL PLAY 60 promotes the importance and fun of getting 60 minutes 
of physical activity per day. Kids are encouraged to find their own 
ways to get active--whether it's taking advantage of the local 
playground, playing four-square in the school yard, or establishing a 
walking club with friends. PLAY 60 presents organized sports--including 
youth football--as a great way to get active, but certainly not the 
only way. The NFL does not necessarily ask kids to play football for 60 
minutes a day. We simply ask kids to play for 60 minutes.
    Since the inception of PLAY 60 in 2007, the NFL has committed more 
than $200 million in resources to youth health and fitness through 
media time for public service announcements, programming, and grants. 
Last year alone, more than 700 events were hosted by all 32 NFL teams 
who implement PLAY 60 in their local markets. NFL PLAY 60 is also 
supported year round by many of the NFL's most prominent players, 
including Drew Brees, Eli Manning, DeMarcus Ware, Jason Witten and my 
teammates, Hines Ward and Troy Polamalu.
    In January, the NFL hosted the Pro Bowl in South Florida. The NFL 
asked all of its All Star players to fan out across the community on a 
single day to complete youth health and wellness-oriented projects. The 
NFL PLAY 60 Pro Bowl Community Blitz involved NFL Pro Bowl players 
building playgrounds, hosting youth football clinics, and leading 
healthy cooking demonstrations. This day is just one example of a year-
round effort--during the football season and in the off-season--to 
promote youth health and activity.
    I am committed to supporting the NFL's goal of combating childhood 
obesity. I see this epidemic around the country, in our schools, and in 
my community. As a professional athlete, I feel I have a responsibility 
to be involved in this issue, which is why I am active in NFL PLAY 60 
through the Fuel Up to PLAY 60 program.
    In January, I attended an event for the Fuel Up to PLAY 60 program 
at the Central Park East Middle School in Manhattan. Fuel Up is a joint 
effort between the NFL, the U.S. Department of Agriculture and the 
National Dairy Council designed to create healthier environments in 
schools. Fuel Up currently has a presence in 60,000 schools across the 
country. This program empowers youth to help make their schools 
healthier and to develop life-long healthy eating and physical activity 
habits. Agriculture Secretary Vilsack, NFL Commissioner Roger Goodell, 
former Surgeon General Dr. David Satcher, and many others were in 
attendance.
    I had a chance to interact with more than 100 kids in the 6th 
through 8th grades. Along with the others in attendance, I spoke to 
them about healthy living and staying active. I described for the kids 
what I did outside of football to maintain my health--dancing, roller 
skating, and playing basketball. We also discussed all of the sports--
in addition to football--that I participated in as a kid and how 
important that was to me.
    I also had the opportunity to participate in the PLAY 60 activity 
stations with the kids. We worked on football activities like learning 
how to correctly throw a football, but also a number of running, 
climbing and agility drills.
    The facts surrounding childhood obesity are startling. Nearly one 
in three children and teens in the United States are obese or 
overweight. That is more than 23 million youth. In the last two 
decades, the rate of overweight children has doubled.
    We know that youth who are overweight or obese are more likely to 
have health risk factors associated to cardiovascular disease such as 
high blood pressure, high cholesterol, and type II diabetes. In 
contrast, the benefits of good health translate to the classroom where 
studies show that fit students are less likely to have disciplinary 
problems. Healthy students also perform better on standardized tests.
    It is possible that these facts, while shocking, should not come as 
such a surprise when we consider that more than 60 percent of children 
ages 9-13 do not participate in any organized physical activity during 
non-school hours. The number of idle children is increasingly 
significant when schools around the country find it challenging to 
offer physical education classes. Sadly, 50 percent of the schools do 
not provide physical education in grades 1-5; 75 percent do not provide 
classes for grades 6-8.
    Recently, the NFL has been honored to participate with First Lady 
Michelle Obama on her Let's Move campaign. Just this fall, 
representatives of the NFL were also proud to join the President in 
filming a public service announcement supporting PLAY 60 and President 
Obama's community service initiative. It is exciting to see the White 
House add their commitment and passion to this issue.
    I am hopeful that the NFL's efforts complement the work of the 
White House and the Congress in addressing this public health crisis. I 
have attached to my testimony descriptions of some of the programs the 
NFL supports in its PLAY 60 initiative.
    Mr. Chairman, I commend you on holding this hearing and focusing 
congressional attention on this vital issue of public health. I look 
forward to working with you and members of the committee and look 
forward to answering your questions.

    Key NFL PLAY 60 programs are outlined below:

    NFL PLAY 60 Challenge is the NFL PLAY 60 in-school curriculum, 
created in partnership with the American Heart Association. The NFL 
PLAY 60 Challenge teaches educators and children to integrate health 
and fitness into daily classroom lessons. The NFL PLAY 60 Challenge 
provides 50 short activities that teachers can weave in throughout the 
school day and kids can implement at home.
    NFL Take a Player to School allows kids to bring the ultimate 
``show-and-tell'' to their classrooms each year. Lucky students in 34 
cities nationwide win the chance to arrive at school with an NFL player 
and to design the Ultimate NFL Gym Class with that player. Together, 
the NFL player and the winning student lead classmates in fitness 
activities and talk about the importance of good health and smart food 
choices.
    Mini ReCharge! is a youth fitness program produced by the NFL and 
Action for Healthy Kids. Packed with action and loaded with fun, Mini 
ReCharge! kits are full of activities designed to get kids on their 
feet and energized. The kits are distributed nationwide to schools, 
after-school programs, and local community groups.
    Fuel Up to Play 60 is an NFL and National Dairy Council program 
that supports student-fueled efforts to bring about healthy changes 
within their schools. This program shows student teams how they can 
responsibly and effectively engage key school and community leaders to 
create healthy school environments.
    Keep Gym In School is the NFL Network's PLAY 60 program, working 
with Verizon Fios, Comcast and Cox Cable to adopt and deliver high 
quality, daily physical education opportunities to schools in four 
school districts across the United States. Keep Gym In School provides 
support as needed to upgrade facilities, hire certified Physical 
Education instructors, and supply equipment for Physical Education 
classes. In addition, schools nationwide can compete for 10 $1,000 
grants to support physical education in their school.
    The NFL PLAY 60 Super Bowl Contest allows young fans to explain how 
staying active helps them live better lives. One lucky child who 
submits a short essay about the role of health and fitness in his/her 
life will win the ultimate prize--a chance to run on field with the 
game ball and hand it to the referee in front of millions right before 
kickoff at Super Bowl.
    NFL Flag Football, NFL Punt, Pass and Kick, and the NFL Girls Flag 
Football Leadership Program encourage all young fans to be active and 
fit. In addition to these year-round programs, special NFL PLAY 60 
Youth Football Festivals during major events such as the Draft, 
Kickoff, Super Bowl and Pro Bowl allow thousands of children to get 
active alongside NFL superstars. Kids in underserved areas of NFL 
markets also get the chance to engage in PLAY 60 activities through new 
and refurbished fields, courtesy of the NFL Grassroots field grant 
program.
    Hometown Huddle is the NFL's annual league-wide day of service held 
in October in partnership with United Way. All 32 teams--including 
players, coaches, owners and staff--host a service project in their 
local community. Since 2007, these projects have reflected the NFL's 
commitment to getting kids active and healthy; teams use this day to 
build playgrounds, refurbish gymnasiums and teach kids about the 
importance of healthy living.
    All 32 NFL teams are heavily engaged in PLAY 60. Players make 
school visits to talk about the importance of health, host youth 
fitness events, construct youth fitness zones, and film public service 
announcements. Whatever forms the community outreach may take, the 
message is the same: NFL teams and their players know the importance of 
youth health and fitness.

    The Chairman. Well, thank you very much, Mr. Mendenhall.
    Thank you all for your testimonies and for your involvement 
in various aspects of this national issue of obesity.
    Mr. Mendenhall, I'll just, if I can, start with you. First 
of all, let me commend you for your involvement in PLAY 60. I'm 
familiar with--I was with a group of them, about a year ago, at 
an event we had here in Washington. Let's face it, kids look up 
to you and people like you who have been successful and are 
extremely good at what you do. How do we get more sports 
figures involved in this? I mean, let's face it, there's just 
not a lot of them doing what you're doing. How do we get more 
involved in this? They could be a great example to our kids.
    Mr. Mendenhall. I think, with the NFL PLAY 60, it's pretty 
new, it's fairly new. A few years ago, I really hadn't heard 
much about it, but, as time has gone on, it's starting to pick 
up more and more, and more people are getting involved. I feel 
as that goes along, it'll start to spread into other sports, 
because we are recognizable figures. For kids just to see our 
face and our jersey; they see us on TV all of the time. I'm 
pretty sure not too many kids are watching C-SPAN, so it's a 
lot harder for you guys.
    [Laughter.]
    But, I think, as this is becoming more of an issue, it's 
starting to pick up. With us and other sports, and just in the 
country as a whole.
    The Chairman. Yes. We've just got to get more sports 
figures like you involved in this.
    The second thing is, I think it's important, again, to send 
a signal to kids that not everyone can be a Rashard Mendenhall. 
Let's face it, you are a unique individual. As Senator Enzi was 
saying--and when I was younger, some sports I just wasn't very 
good at. No matter how hard I tried, I wasn't. But maybe there 
was something else I could do. So, I think it's important to 
tell kids, they don't have to be a running back but, they can 
do other things, just to be active. And that's why we need 
athletes like you to be talking about other things they can do.
    Mr. Mendenhall. Yes, I think it's very important that kids 
understand that it's not just about playing sports, it's about 
doing what you're interested in, whatever that is, whether 
that's jumping rope or even--with me, something I'm personally 
interested in a lot is dancing. And I've taken numerous dance 
classes as a way to move myself. I've actually taught a couple 
of dance classes to high schools in my area and things like 
that. So, I think, as far as physical exercises, you're doing 
what you enjoy.
    And with the food, too--even when I was younger, I didn't 
like vegetables, and when somebody tells you to eat healthy, 
they kind of force, ``Oh, you should eat celery,'' and this and 
that. And I don't think it's as much as finding things that you 
like and enjoy. You know, I mean, you can find fruits or yogurt 
or something that you enjoy, and I think it's just pushing that 
to kids, where it's not forcing you to eat something, but just 
finding a way to do something that you like.
    The Chairman. Well, I appreciate your involvement and I 
look forward to working with you and the NFL more on this.
    Dr. Hassink--and Dr. Thompson didn't talk too much about 
it, but there was a lot in your written testimony that I read 
last night about the disparities that are happening out there. 
There's rural, there's urban, Hispanic Americans, African-
American kids, upper-middle income, low income--cutting across 
all racial and ethnic lines. There seems to be kind of a 
hodgepodge out there. How do we get a handle on this, in terms 
of who is at the most risk? I see these Hispanic Americans seem 
to be at the most risk as young people. And how do we get at 
the root causes of this, and how do we get the parents 
involved, you know? The Hispanic American community, for 
example, the African-American community--how do we get them 
involved at an early time on this?
    Dr. Hassink. Well, a couple of things. When the Expert 
Committee on Obesity wrote the recommendations, they really 
considered all children at risk so that preventative efforts 
should go across the board, across all populations. I think if 
you look at each child, even, each child and family have their 
own constellation of risk factors, and then you expand that 
out, and there are groups that have their own risk factors, and 
I think we're starting to really understand, in what 
environment is that family and child, or is that ethnic group 
living? Are they living in a food desert? Did they have good 
prenatal care? Was their mother healthy during the pregnancy? 
Are we communicating effectively?
    That little 2-year-old that came in to see me, the mom 
wanted somebody to talk to. What I didn't say is, the mom 
didn't speak English, so I had my translator with me and could 
talk to her at length about her concerns about her child. But, 
she'd been looking for a place to have that discussion. So, we 
have to understand what some of the barriers are to people who 
really want to have healthy children.
    I think it's understanding that model of the child and 
family in the wider community and environment, and what the 
forces are acting upon them. And they'll be different, but 
there are similarities that we can start to tease apart and 
understand.
    Dr. Thompson. Senator, there's no question that lower-
income communities and communities of color have been 
disproportionally affected by this epidemic. And if you think 
about the causes that we talked about, they have been greater 
in contributing in those communities that are lower income and 
communities of color, and isolated geographically. So, it's not 
surprising that they have more burden. It's not because the 
parents made poorer choices, it's that the environment within 
which those families have grown up is more hostile to the 
health of the family.
    So, I think as you--and at the State level and local 
level--look for solutions, we need to disproportionally invest 
in those communities that have been more affected, and make 
sure that we're bringing everyone along as we address the 
epidemic.
    The Chairman. Thank you very much, that's sort of what I 
was getting at.
    Thank you, Dr. Thompson.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    This panel's been extremely helpful. And I, too, will start 
with the football player, because I really appreciate your 
comments and the program and especially the emphasis you're 
placing on dancing. There are so many ways out there of having 
physical activity that kids kind of shy away from. And part of 
what I think we do with the obesity conversation is embarrass 
some kids, too. And there's nothing worse than embarrassing 
anybody; they will never forgive you.
    I had a son that was 6-foot-6 in junior high, and the coach 
said that he tripped over the free-throw line. But, he worked 
with him, anyway, and he grew to 6-foot-8, and he wound up 
playing a little basketball for the University of Wyoming. So, 
some kids develop later, and it takes some patience with people 
to really get them to that point.
    Are you finding the NFL program to be very transferable to 
others? And what percentage of the kids would you say are doing 
something besides football?
    Mr. Mendenhall. I would say I feel like it's very 
productive, because when you're wearing your jersey and you 
walk into a kid's school, it leaves a lasting impact on them. 
When you tell them that you enjoy, eating healthy, you enjoy 
the feeling of being active, I feel like that kind of sticks. 
And, when you tell them things you do outside of sports, 
because--and, too, it's a topic not just for the young boys, 
but young girls, too, who don't play sports. I think when you 
tell them other things that you like to do, and that there's 
other things you can do, I think that kind of sticks a little 
more, just you being recognizable.
    So, as far as a percentage, I don't know, you know 
everybody seems excited when you're there. But, I really do 
think it sticks.
    Senator Enzi. I think it is a good program. There's a kid 
from Wyoming on the practice squad for the Redskins, Clint 
Oldenburg, and my daughter, who is a teacher, talked him into 
calling and talking to the class about what it was like to be 
in the NFL and what sorts of things they ought to be doing if 
they're interested in any kind of professional sports. And it 
had more of a lasting impact on them than anything that she 
ever tried. So, I really appreciate what you're doing, and I do 
think it makes a tremendous impact, and particularly when 
leaders like you are involved in it.
    Mr. Thompson, you did some studying on this urban-versus-
rural. How is the Center for Childhood Obesity using this data 
to be sure that they're targeting the communities with the 
greatest need?
    Dr. Thompson. Well, one of the things that we've identified 
is, anywhere that you've got isolation--it can be geographic 
isolation in rural communities, where there really is not a 
grocery store, there's not a food source, as we heard earlier. 
The school may have been located on the opposite side of the 
highway from where the neighborhood is, so that the built 
environment is not conducive to being able to walk to school 
anymore. And then, in our inner-city urban areas, where we've 
had economic blight and lost some of the resources, in terms of 
food availability, grocery stores and so forth, we're trying to 
invest in people, in programs, in policy change so that we 
reinforce the reclaim of those areas, looking at ways that we 
can stimulate local food produce, that we get farm-to-school 
initiatives back in place, that we stimulate farmers' markets, 
that we help local growers be able to put electronic debit card 
capabilities so that we can use the Supplemental Nutrition 
Assistance Program, Food Stamp Program, for lower income folks.
    We have programs in communities across the Nation that are 
really taking on new, innovative strategies--Safe Routes to 
School is an important program, the Complete Streets Program--
we've looked at the Alliance for a Healthier Generation, that 
Dr. Hassink mentioned, trying to get schools to challenge, to 
have healthier options in their cafeteria and integrate 
physical activity back into their daily set of activities.
    These are all programs across the Nation that are going 
on--innovative, coming from the grassroots up--and if we, at 
the State level, can help reinforce and support, and, at the 
Federal level, take the opportunities that you're going to have 
forthcoming, we could really make a big difference on this 
childhood obesity epidemic.
    Senator Enzi. Well, I appreciate the work that both you and 
Dr. Hassink are doing.
    I was a speaker at Buffalo High School graduation, and the 
thing that really struck me was, out of all of the graduates 
there, there were none that were obese. And it's an aberration 
in Wyoming, and I have no idea why that is. So, I appreciate 
that somebody is studying these things and finding them out.
    Dr. Hassink, have there been some studies that show whether 
there's a relationship between whether the parents are obese 
and the kids are then obese? I know, in math classes, that 
there are parents that did badly in math, and they allow their 
kids, then, to be bad in math by saying, ``Well, you've 
inherited it, so you don't stand a chance, you're going to be 
bad in math, too.'' But that's easy to overcome. Can that be 
overcome in the obesity thing, as well?
    Dr. Hassink. Yes, it can be. I think that children who are 
in families that have obesity are more predisposed, and we 
often say that, you know, genetics and heredity are the 
predisposition, but the environment is often the trigger for 
the predisposition. And I think that's why we've seen the 
epidemic grow so rapidly in the last 25 years. The family 
genetics haven't changed as much as the environment has.
    So, parents who have this in their family need to be aware 
of the same things everybody does, and be vigilant about the 
environments that are in the home and in the community and in 
the schools--to help their children. I think it can be 
overcome. It takes some support to help those families. And in 
communities like our Native American population, where obesity 
is just incredibly prevalent, that's an example of populations 
that originated in situations of scarcity, moved into a 
situation of abundance, developed obesity. It's heritable, it's 
environmental, and we have to pay attention to that risk, among 
the other risks, and help those environments get healthier, to 
support what those parents need to do for their children.
    So, I think we have predisposition, and the environment 
tends to trigger it off.
    Dr. Thompson. Senator Enzi, if I could add, you know, 
there's never a stronger advocate for a child than the parent. 
And I think one of the things that we have failed to do is 
raise awareness and offer support. One of the things we tried 
to do in our State is wrap everything we were doing around 
families to give that support and to make the environment not 
be as hostile. And parents really pick that up. In the first 
years when we were giving the health report, I saw, in front of 
my house, a mom with three teenaged boys on a forced march. And 
the third day that I saw them, I stopped her, and I said, 
``Well, what was the trigger?'' And she goes, ``Well, my mom 
died of diabetes, I've got a touch of diabetes, and my son got 
a health report that said he might get it in the future, and 
we're not going to have that happen.'' So, wrapping support 
around parents really can make a huge difference.
    Mr. Mendenhall. And speaking from a young generation, to 
kind of add to the environment--I think, it was brought up 
earlier--a real big part of this epidemic, I think, is 
technology--the Internet and cell phones--because when I was 
younger, none of that was around, and to even see your friends, 
you had to go outside, you had to go to the park, you had to 
run or ride your bike to somebody's house to see if they were 
home and to try and find them. So, I think everything's so 
accessible at home, with the social networks and with cell 
phones and with things of that nature, where you really kind of 
don't have to leave. And in order to see my friends, you kind 
of had to leave.
    And when you acted up, when you didn't do good in school, 
your mama grounded you. You had to be in your room, where there 
wasn't a TV, there wasn't anything in there. So, it's a lot 
easier to be home now, and tougher to go outside, that's what 
I'm saying.
    Senator Enzi. Yes, a lot of families only had one TV, too, 
so they even had to negotiate that time.
    You three have been, just, a tremendous resource, and I 
hope we can continue to call on you and--as I came in, I 
noticed that there were a whole bunch of television people out 
there, so I was, ``Oh yes, Pittsburgh Steelers.''
    [Laughter.]
    I appreciate your C-SPAN comment, you probably increased 
the viewership today.
    [Laughter.]
    Thank you, Mr. Chairman.
    The Chairman. Senator Enzi.
    I don't have any followup--just again, I hope that we can 
call upon you as we move forward. As I said, this is the first 
of a series of hearings; we've just started this. The First 
Lady--we had a meeting, we were all down at the White House to 
meet with the First Lady--twice, as a matter of fact--on this 
issue, and she has really taken this on. That gives us a nice 
bully pulpit. She's really committed to this and with the 
Surgeon General, I think we can really start to make some 
differences here.
    Now we have the Child Nutrition Reauthorization bill coming 
up. I mentioned the Elementary and Secondary Education Act. 
And, as you pointed out, Dr. Thompson--I think it was you--that 
there's a lot of things happening in communities around the 
country, there are all isolated kinds of things going on in 
different places.
    You don't mind coming back to Iowa sometime, Mr. 
Mendenhall--in a nicer capacity than what you have in the past, 
and more gentle capacity. We have a high school that is just 
doing great stuff in Iowa. In Grundy Center, IA--I had Arnie 
Duncan out there to look at it--every kid, when they come 
into--not just high school, grade school--when they first enter 
grade school, they get measured--BMI, weight, blood pressure, 
all of that kind of stuff. And they're tracked all the way 
through grade school and high school. And every kid has to 
exercise. Every kid. Even kids with disabilities have to 
exercise. So, they fit the program around individual kids. And 
it's amazing what they have done there, and they have 
incorporated it into their school system. The parents are 
supportive, the community has been supportive of it. If that 
can happen in a little town like Grundy Center, IA, it can 
happen anywhere. But, it takes some leadership to do this.
    My point is that there's little things like this happening 
all over the country, so we've got to find these and put them 
together in a network, and take their expertise and try to get 
it out to the rest of the country. And, you know, again, we 
need support from this government, local governments. School 
boards need to be involved in this.
    I'm just saying that, as we move ahead, all of you--each of 
you, in your own capacity, can be very helpful in helping us 
think about what we do, how we do it, helpful to the First Lady 
in terms of her efforts and what she's doing.
    I hope that we can continue to consult with each of you and 
have you involved in this effort.
    Dr. Thompson. I look forward to being here.
    The Chairman. You bet.
    Thank you all very, very much. Any last things before we 
leave?
    Dr. Thompson. I think the only thing I would add is, this 
is an epidemic, it is a real threat. It's not, kind of, on the 
margin.
    The Chairman. Yes.
    Dr. Thompson. And if we can encourage and support you, and 
others, to think about health in all policies, we'll reverse 
this epidemic and we'll safeguard the future of our children.
    The Chairman. It's just like you said, no parent wants 
their kid to be educated and unhealthy, or healthy and 
uneducated. Parents want both of those things. And we've got to 
do everything we can to help parents meet that goal.
    Mr. Mendenhall. I think, with what you were saying earlier, 
and in that school, at the end of the day we're just trying to 
encourage kids to do what they naturally want to do, and that's 
just play.
    The Chairman. That's right. That's right.
    Mr. Mendenhall. I think we've kind of gotten away from that 
with--well, for numerous reasons--but just encouraging kids to 
play, I'm sure they really want to.
    The Chairman. Right. We need more parks, more playgrounds, 
more recreational--supervised, safe--things like that.
    Yes?
    Dr. Hassink. I don't think there's anything more important 
to any parent or any community or any country as the health of 
its children. Nothing more important. That's our future.
    The Chairman. Yes.
    Dr. Hassink. I think that it's wonderful to get together 
and to start this effort, all together, to really reinforce 
that value, that they're important. That's our future.
    The Chairman. Good note on which to end.
    Thank you again, everyone.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Murray

    Chairman Harkin, Ranking Member Enzi, and members of the 
committee, thank you for holding today's hearing on childhood 
obesity.
    Like many Senators I am extremely concerned about the 
raising rates of childhood obesity. Over the past three 
decades, childhood obesity rates in the United States have 
tripled, and today, one in three children in America are 
overweight or obese. While the committee will soon reauthorize 
the Child Nutrition Act, which will provide us with an 
opportunity to improve the nutritional content of meals served 
through the Head Start and school lunch programs, I believe we 
must do more. Nutrition and diet can make a big impact on 
decreasing obesity, but children's physical activity must be 
increased in order to help combat childhood obesity. Research 
shows that children need 60 minutes of active and vigorous play 
every day to grow to a healthy weight, but only a third of high 
school students get the recommended levels of physical 
activity.
    I applaud the recent creation of the Presidential Task 
Force on Childhood Obesity and Let's Move program. For several 
consecutive Congresses, Senator Snowe and I have introduced the 
High School Sports Information Collection Act (S. 471). I 
believe the enactment of this bill would help decrease 
childhood obesity by helping to ensure that schools are 
providing all their students with equal opportunities to 
benefit from school sports programs. This bipartisan 
legislation would require high schools to collect athletic 
participation rates broken down by gender, race, and ethnicity 
and expenses per team; this data would then be reported to the 
Department of Education. Much of this information is already 
collected by schools, but is not publicly available. Equitable 
athletics opportunities will also impact more than childhood 
obesity; statistics have shown that girls thrive when they 
participate in sports and are less likely to get pregnant, drop 
out of school, do drugs, smoke, or develop mental illness.
    In addition to undermining children's health, obesity is 
expensive to a nation that already has spiraling health care 
costs. A recent study put the health care costs of obesity-
related diseases at $147 billion per year, but it doesn't have 
to be that way. The New York Times recently highlighted 
research that found that the ``increase in girls' athletic 
participation caused by title IX was associated with a 7 
percent lower risk of obesity 20 to 25 years later, when women 
were in their late 30s and early 40s.'' The study notes that 
while a 7 percent decline in obesity is modest, ``no other 
public health program can claim similar success.'' Simply put, 
properly enforcing title IX and increasing children's physical 
activity can lower obesity risks even into adulthood. 
Unfortunately, girls are currently losing out on athletic 
opportunities. While girls comprise half of the high school 
population, they receive only 41 percent of all athletic 
participation opportunities--1.3 million fewer participation 
opportunities than male high school athletes. In my home State 
of Washington, over 82,000 boys played high school athletics 
while only 58,000 girls play at the high school level. The High 
School Sports Information Collection Act can help close this 
gap by increasing awareness of disparities and encouraging 
schools to improve athletics for girls.
    The importance of reporting data required under the 
legislation gets at the heart of title IX enforcement. Women 
are now actively participating in collegiate sports in large 
part due to the accountability requirements provided under the 
Equity in Athletics Disclosure Act of 1994. This law requires 
colleges and universities to account for how their athletics 
opportunities, resources, and dollars were allocated among male 
and female athletes. This reporting requirement is, in large 
part, the reason behind the narrowing of the athletics gap at 
the college level. While women's athletics continue to lag 
behind men both in opportunities to participate and in dollars 
spent, women's athletic participation at the college level has 
increased by 403 percent since 1971, proving that interest 
follows opportunity.
    It has been a significant obstacle to equitable 
participation in sports that no such accountability requirement 
exists at the high school level. While colleges must be 
transparent about their athletic opportunity and funding, high 
schools are not required to report opportunity and funding 
statistics to any higher authority. As a result, high school 
girls are being deprived of the critical opportunity to play 
sports.
    Chairman Harkin and Ranking Member Enzi, I am so glad that 
you called this hearing today to examine the daunting problem 
of childhood obesity. As we continue to consider this issue 
during the 111th Congress, I look forward to the High School 
Sports Information Collection Act serving as a part of the 
solution.
    Thank you for the opportunity to submit my statement.

                  Prepared Statement of Senator Casey

    Mr. Chairman, thank you for leading today's hearing on the 
childhood obesity epidemic. This is the first step in an 
ongoing discussion of one of the most serious health challenges 
facing our Nation today.
    We all know the statistics on overweight and obesity: two 
out of every three Americans are overweight or obese, and 20 to 
30 percent of children are overweight. The prognosis for these 
children is grim: 80 percent of overweight 10- to 15-year-olds 
are obese by the time they turn 25.
    The cost of overweight and obesity is another reason to 
address this crisis: we spend almost 10 percent of our health 
care dollars treating people who are overweight or obese. The 
indirect costs of obesity are much higher, resulting in lost 
income due to decreased productivity, restricted activity, 
absenteeism and premature death.
    Going forward, we must think about the tools that parents 
and families need to help our children become and stay healthy. 
We need to think creatively about healthy food and exercise, 
and how we can remove the barriers that families face to 
providing nutritious food and encouraging physical activity.
    Congress has already begun addressing the issue of 
childhood obesity. I also sit on the Agriculture, Nutrition and 
Forestry committee, which will soon reauthorize the Child 
Nutrition Act and will have the opportunity to positively 
impact the nutritional quality of school meals. The Institute 
of Medicine's research-based recommendations for new 
nutritional requirements include setting limits on calories and 
sodium, requiring more whole grains and vegetables, and 
limiting milk to low-fat and skim varieties.
    Our children deserve the whole grains and green vegetables 
needed to develop healthy minds and bodies. I am a co-sponsor 
of Chairman Harkin's bill, the ``Child Nutrition Promotion and 
School Lunch Protection Act'' because establishing nutrition 
standards for a la carte food items will enable children buying 
cafeteria lunch or choosing a vending machine snack to know 
they are making a healthy choice. Feeding our children healthy 
food is a priority and must be funded as such.
    I am pleased today to welcome Rashard Mendenhall, a running 
back with the Pittsburgh Steelers, who has joined us today to 
talk about the NFL's outreach activities to children and the 
role the NFL can play in helping to address the obesity 
epidemic.
    I look forward to the testimony from our other witnesses as 
well, as we come together to develop a strategy to confront 
this critical issue facing our children and our Nation.

                  Prepared Statement of Senator Hagan

    I would like to thank Chairman Harkin for holding this 
hearing today. I would also like to thank the Surgeon General 
and our other witnesses for coming before our committee.
    The childhood obesity epidemic in this country is shocking. 
It is unfathomable that we have regressed so much in just 30 
years; and the ramifications of this epidemic will affect our 
society for several generations.
    In North Carolina, 34 percent of children ages 10 to 17 are 
either obese or overweight. Studies show that children who are 
obese tend to become adults who are obese. Obesity leads to 
heart disease, diabetes, and a whole host of other health-
related problems which result in premature death.
    And each year, this epidemic costs our society billions of 
dollars. In North Carolina alone, the Centers for Disease 
Control estimates that obesity-related expenses add up to more 
than $2.1 billion each year.
    Because of this alarming trend, a few years ago, North 
Carolina took some drastic steps to try to curb childhood 
obesity. Specifically, the State adopted three proposals.

    <bullet> The first was that the State Board of Education 
voted unanimously to adopt a daily 30-minute physical activity 
requirement for all students, K-8. North Carolina was the first 
State in the Nation to pass such a policy at the State Board 
level and began being implemented in the 2006-7 school year. 
Over 29,000 North Carolina K-8 public school teachers have been 
trained in how to provide healthier, more active classrooms.
    <bullet> The North Carolina State legislature also 
established a statewide nutrition standard for all school 
meals, a la carte items, beverages and the After School Snack 
Program in elementary, middle and high schools. The standards 
decreased foods high in total fat, trans fat, saturated fat and 
sugar; while increasing foods containing fruits, vegetables and 
whole grain products.
    <bullet> Finally, the State legislature banned soft drink 
and snack vending sales in elementary schools altogether; 
Prohibited sale of sugared carbonated beverages in middle 
schools; Restricted sale of soft drinks in high schools to no 
more than 50 percent of drinks offered; and required that by 
the 2006-7 school year, 75 percent of snacks in middle and high 
schools have no more than 200 calories per package. Not only 
has this effort had a positive impact on North Carolina, but 
this initiative prompted similar efforts nationwide.

    North Carolina is also testing innovative ways to improve 
nutrition in children. We have a pilot program called IN4Kids 
that is integrating registered dietitians (RDs) who provide 
nutrition counseling in eight primary care practices. Duke is 
managing this pilot, but we have buy-in and participation with 
all 4 major medical schools in North Carolina.
    With so much of our youths' future at stake, addressing 
childhood obesity is something very important to me. I think 
North Carolina is attempting some very creative solutions to 
address the problems of diet, exercise, and community 
empowerment.
    I encourage folks to take a look at what North Carolina is 
doing.
    I'm also interested to hear about other solutions today, 
because I don't believe this is a one-size-fits-all solution. 
Thank you.

                 Prepared Statement of Senator Franken

    Thank you, Mr. Chairman, for holding this hearing on an 
issue that's critical to the health of our Nation, and our 
economy. We're going to hear a whole lot of scary statistics 
today. Many of them are mind boggling. All of them are 
important. And all the numbers distill down to two key facts: 
our kids are eating more and moving less. It's a simple 
formula--and fortunately, one we can change.
    There are many reasons kids are eating more and moving 
less--more access to unhealthy foods and less access to healthy 
foods, more time in front of the TV and less physical 
education, more concerns about public safety and less kids 
riding bikes in their neighborhoods.
    The reality is that our investments in public health are 
not what they should be. We should fully fund programs like 
CDC's Healthier Communities, which has supported nine Minnesota 
communities to be healthier through things like walking clubs, 
cooking classes, and farmer's markets.
    I'm very proud that in Minnesota--even in these tough 
times--the State legislature invested $47 million in the 
Statewide Health Improvement Program--also known as SHIP. SHIP 
reaches 87 counties and eight tribal governments to improve 
Minnesotans' health by thinking upstream--recognizing that 
health begins with healthy behavior and communities.
    There are many anti-obesity efforts taking place across 
Minnesota. Cate Bellevue at Cass Lake Bena Elementary has a 
kids-led Healthy Kids Club after school, so students can get 
nutrition education and go snow-shoeing and skating. These are 
winter-friendly activities that we need in Minnesota.
    Another example is Karen Blanchard, a Registered Dietician 
who works with teens at North High School in Minneapolis to 
teach them healthier alternatives like baked chicken instead of 
fried chicken, and how to control portions.
    My point with these examples is to show that it's important 
for any national anti-obesity strategy to include community-
based initiatives. Because even though food is part of the 
obesity equation, food is also a vital part of our lives and 
cultures. In Minnesota we are proud to be home to many diverse 
communities--Scandinavian, American Indian, Hmong, Somali, 
Ethiopian, Vietnamese, Tibetan, and many others. So as we move 
``upstream'' to address childhood obesity at its source, we 
need to make sure we incorporate culturally specific elements 
in all of our programs. Thank you.

 The Surgeon General's Vision for a Healthy and Fit Nation (Fact Sheet)
    Today's epidemic of overweight and obesity threatens the historic 
progress we have made in increasing American's quality and years of 
healthy life. The hard facts:

    <bullet> Two-thirds of adults and nearly one in three children are 
overweight or obese.
    <bullet> Seventy percent of American Indian/Alaskan Native adults 
are overweight or obese.
    <bullet> The prevalence of obesity in the United States more than 
doubled (from 15 percent to 34 percent) among adults and more than 
tripled (from 5 percent to 17 percent) among children and adolescents 
from 1980 to 2008.
    <bullet> An obese teenager has over a 70 percent greater risk of 
becoming an obese adult.
    <bullet> Obesity is more common among non-Hispanic black teenagers 
(29 percent) than Hispanic teenagers (17.5 percent) or non-Hispanic 
white teenagers (14.5 percent).

    To stop the obesity epidemic in this country, we must remember that 
Americans will be more likely to change their behavior if they have a 
meaningful reward--something more than just reaching a certain weight 
or dress size. The real reward has to be something that people can feel 
and enjoy and celebrate. That reward is invigorating, energizing, 
joyous health. It is a level of health that allows people to embrace 
each day and live their lives to the fullest--without disease, 
disability, or lost productivity. To be a nation that is Healthy and 
Fit.
    Key actions outlined in The Surgeon General's Vision for a Healthy 
and Fit Nation include:

    Individual Healthy Choices and Healthy Home Environments. Change 
starts with the individual choices Americans make each day for 
themselves, their families and those around them. To help achieve and 
maintain a healthy lifestyle, Americans of all ages should: reduce 
consumption of sodas and juices with added sugars; eat more fruits, 
vegetables, whole grains, and lean proteins; drink more water and 
choose low-fat or non-fat dairy products; limit television time to no 
more than 2 hours per day; and be more physically active.
    Creating Healthy Child Care Settings. It is estimated that over 12 
million children ages 0-6 years receive some form of child care on a 
regular basis from someone other than their parents. Child care 
programs should identify and implement approaches that reflect expert 
recommendations on physical activity, screen time limitations, good 
nutrition, and healthy sleep practices. Parents should talk with their 
child care providers about changes to promote their children's health.
    Creating Healthy Schools. Each school day provides multiple 
opportunities for students to learn about health and practice healthy 
behaviors such as regular physical activity and good nutrition. To help 
students develop life-long healthy habits, schools should provide 
appealing healthy food options including fresh fruits and vegetables, 
whole grains, water and low-fat or non-fat beverages. School systems 
should also require daily physical education for students allowing 150 
minutes per week for elementary schools and 225 minutes per week for 
secondary schools.
    Creating Healthy Work Sites. The majority of the 140 million men 
and women who are employed in the United States spend a significant 
amount of time each week at their work site. Because obesity reduces 
worker productivity and increases health care costs, employers are 
becoming more aware of the need to help promote health within the 
workplace. Employers can implement wellness programs that promote 
healthy eating in cafeterias, encourage physical activity through group 
classes and stairwell programs and create incentives for employees to 
participate.
    Mobilizing the Medical Community. Doctors and other health care 
providers are often the most trusted source of health information and 
are powerful role models for healthy lifestyle habits. Medical care 
providers must make it a priority to teach their patients about the 
importance of good health. When discussing patients' Body Mass Index 
(BMI), providers should explain the connection between BMI and 
increased risk for disease and, when appropriate, refer patients to 
resources that will help them meet their physical, nutritional, and 
psychological needs.
    Improving Our Communities. Americans need to live and work in 
environments that help them practice healthy behaviors. Neighborhoods 
and communities should become actively involved in creating healthier 
environments. Communities should consider the geographic availability 
of their supermarkets, improving resident's access to outdoor 
recreational facilities, limiting advertisements of less healthy foods 
and beverages, building and enhancing infrastructures to support more 
walking and bicycling, and improving the safety of neighborhoods to 
facilitate outdoor physical activity.

    [Whereupon, at 11:40 a.m., the hearing was adjourned.]






</pre></body></html>
